<html>
<title> - EXPANDING ACCESS TO QUALITY EARLY LEARNING: THE STRONG START FOR AMERICA'S CHILDREN ACT</title>
<body><pre>[Senate Hearing 113-832]
[From the U.S. Government Publishing Office]











                                                        S. Hrg. 113-832

   EXPANDING ACCESS TO QUALITY EARLY LEARNING: THE STRONG START FOR 
                         AMERICA'S CHILDREN ACT

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING EXPANDING ACCESS TO QUALITY EARLY LEARNING, FOCUSING ON THE 
              ``STRONG START FOR AMERICA'S CHILDREN ACT''

                               __________

                             APRIL 10, 2014

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-610 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          




















          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont         RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania   JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina         RAND PAUL, Kentucky
AL FRANKEN, Minnesota                ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado          PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island     MARK KIRK, Illinois                                                    
TAMMY BALDWIN, Wisconsin             TIM SCOTT, South Carolina
CHRISTOPHER S. MURPHY, Connecticut
ELIZABETH WARREN, Massachusetts
                              

                      Derek Miller, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)

  




















                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, APRIL 10, 2014

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     3
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................     5
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    35
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    42
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    44
    Prepared statement...........................................    46

                           Witnesses--Panel I

Pepper, John E., Jr., Retired Chairman and CEO, Procter & Gamble 
  Company, Cincinnati, OH........................................     7
    Prepared statement...........................................     9
Taveras, The Honorable Angel, Mayor of Providence, Providence, RI    13
    Prepared statement...........................................    14
Barnett, W. Steven, Ph.D., Director, National Institute for Early 
  Education Research, Rutgers University, New Brunswick, NJ......    16
    Prepared statement...........................................    17
Whitehurst, Grover J. (Russ), Ph.D., Director, Brown Center on 
  Education Policy, Brookings Institution, Washington, DC........    23
    Prepared statement...........................................    25

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Tadeo Saenz-Thompson, Chief Executive Officer of Inspire 
      Development Centers, Sunnyside, WA and Board Member and CEO 
      Affiliate President of the National Migrant and Seasonal 
      Head Start Association.....................................    50
    National Indian Head Start Directors Association, Jacki 
      Haight, President..........................................    53
    Letter to Senator Casey from Angel Taveras, Mayor, 
      Providence, RI.............................................    54
    Response of Steven Barnett to questions of:
        Senator Murray...........................................    55
        Senator Casey............................................    56
    Response of Grover J. (Russ) Whitehurst to question of 
      Senator Casey..............................................    56

                                 (iii)

  

 
   EXPANDING ACCESS TO QUALITY EARLY LEARNING: THE STRONG START FOR 
                         AMERICA'S CHILDREN ACT

                              ----------                              


                        THURSDAY, APRIL 10, 2014

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Alexander, Murray, Casey, 
Franken, Whitehouse, and Murphy.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    I want to thank, first of all, all of our witnesses for 
being with us today to examine the Strong Start for America's 
Children Act, a bill that will greatly expand access to high 
quality early learning experiences for children from birth 
through kindergarten.
    I introduced this bill last November along with Congressman 
George Miller and Congressman Richard Hanna on the House side. 
Already, it has received broad support from more than a quarter 
of the members of both the Senate and the House. The bill 
enjoys bipartisan support in the House but, unfortunately, is 
supported on only one side of the aisle here in the Senate and, 
of course, I am hopeful that that situation will change through 
the process of our hearings and mark-up.
    This legislation has received support from organizations 
that you would expect to be associated with early childhood 
bills--early childhood advocates, and professionals, and 
researchers--who have dedicated their professional lives to the 
study of what is developmentally appropriate for children. But 
Strong Start also has support from retired generals, top 
business leaders, law enforcement organizations, local chambers 
of commerce, pediatricians, and other health professionals. 
They are all urging us to invest in high quality early learning 
for very young children.
    As a matter of fact, I remember when we had our press event 
for rolling out the bill, Congressmen Hanna, Miller, and 
myself, and there were others there. There was the Sheriff of 
Hennepin County, MN, whom I did not know, but he had been 
invited, and he was the last speaker, and he was in his sheriff 
's uniform, and he introduced himself as the Sheriff of 
Hennepin County. He said, ``But more importantly, I am the 
person you pay later. I am the person you pay later if you do 
not invest in early childhood education.''
    In drafting this legislation, we learned from the success 
of States that have developed systems of early childhood 
development and education, particularly for preschool-aged 
children. We talked to researchers to make sure our proposals 
have a solid basis in evidence. We talked to organizations 
representing Governors, and school districts, teachers and 
community-based early learning providers to make sure that what 
we put together can be successfully implemented on the ground.
    Last month, when I was in Iowa for a field hearing on early 
childhood learning, we visited a preschool in Des Moines, the 
Mitchell School. Their staff was well-trained, they had small 
class sizes, and used developmentally appropriate curricula. 
But here is the catch: because of inadequate funding, they 
could only offer preschool for only 3 hours a day. So people 
are coming there, dropping their kids off, 3 hours later, they 
had to have somebody come and pick them up. Research strongly 
indicates that a full day of preschool yields far better 
results for children than just a couple of hours.
    On a practical level, as I said, a part-day structure can 
make it tough on families who have to knit together 
transportation and childcare arrangements to make preschool 
work. So this bill would help States, like Iowa and others, to 
offer full-day programs for children so that parents do not 
have to think about picking up their kids just a couple of 
hours after they have dropped them off.
    Some argue that we have a proliferation of early learning 
programs and we should determine how to better coordinate them. 
I agree with that, which is why in the Strong Start bill, we 
ask States to coordinate and align their efforts. Others argue 
that we should simply look to the Child Care and Development 
Block Grant that we recently passed as the answer to early 
childhood education.
    I would like to make it clear that, while I am proud of our 
efforts to reauthorize that longstanding program, the bill that 
passed the Senate made only modest changes to improve a 
childcare program that had not been reauthorized in 18 years. 
So it is really a bill that is 18 years old or more, and we 
authorized it with modest, minor changes. The problem is, we 
know a lot more today than we did 18 years ago.
    The most frustrating argument is that we already invest a 
significant amount of money in early childhood and that new 
investments are not needed, but I think reality suggests 
otherwise. Given that only 1 in 6 children eligible for 
childcare subsidies receive them, 1 in 6; fewer than half of 
children eligible for Head Start receive its services; and 
fewer than 1 in 20 infants and toddlers eligible for Early Head 
Start have access to those programs, 1 in 20. So to say that we 
have already invested a significant amount is just not so. We 
can, and should, do more to ensure that young children are 
given every opportunity to have access to quality early 
learning opportunities.
    Currently, 43 States offer preschool. Indiana was among a 
few States that did not provide State-based support for 
preschool; but, recently, Governor Pence was able to advance a 
measure to get the State started in providing preschool. As 
Governor Pence put it, ``This is our shining moment to get out 
there and say, `Yes, we are crazy about kids and we want to 
support these initiatives,' '' and I agree with that.
    I am eager to work with any Senator who is willing to be a 
part of this legislative effort. But I just do not think we can 
wait any longer to take action on what, I believe, is one of 
the most important issues over which this committee has 
jurisdiction. So accordingly, we will have our hearing. I look 
forward to having mark-up sessions on this legislation next 
month, May. That is sort of the process that we will go 
through.
    And now, I will yield to Senator Alexander for his opening 
statement.

                     Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman.
    And welcome to the witnesses. We are glad you are here and 
appreciate your coming.
    Today's hearing, as Senator Harking said, is about his 
proposal, which mirrors the President's proposal. I believe 
there is a better way to do it, and I am developing legislation 
that would implement that, and hope it will be considered when 
we have our committee mark-up next month.
    There is not any question about whether early learning is 
important. That question is: what is the best, next step? What 
is the best way to do it? And I believe the best way to do it 
is to provide States with the flexibility to use some or all of 
the more than $22 billion in Federal money that we already 
spend on 45 different early childhood education programs, and 
allow States to use it in the way that best meets their needs.
    We learn a lot from our witnesses such as you are. Earlier 
on this subject, the Louisiana Superintendent of Schools, John 
White, talked about his State's effort, and what they were 
doing to provide the basic conditions for parents and children 
to have quality choices and access to preschool education.
    He explained the greatest barrier, in his words, to 
implementing the pre-Kindergarten program for children zero 
through four in Louisiana, one that meets the basic conditions, 
is not necessarily funding but, ``The fragmentation of our 
country's early childhood education system.''
    He used Head Start as an example. He said that $120 million 
of Federal funding going to Louisiana annually for Head Start,

          ``Skirts State-level input, virtually 
        institutionalizes fragmentation, and guarantees 
        incoherence and access to quality for parents, and 
        teachers, and children alike.''

    According to the Government Accountability Office, which 
issued its report in 2012, the Federal Government already funds 
45 different early childhood and preschool programs, including 
33 that permit the use of funds to provide support of related 
services to children from birth through age five, and 12 
programs where the explicit purpose is to provide childhood and 
preschool or childcare services. So a total of 45 programs plus 
5 tax provisions that subsidize private expenditures in the 
area of early childhood and preschool programs.
    This year, Congress appropriated more than $15 billion for 
the 12 programs that are explicitly focused on early childhood. 
That includes $8.6 billion for Head Start; $250 million for 
Race to the Top; $790 million in grants on Disabilities 
Education Act; $5.3 billion on the Child Care and Development 
Block Grant; and then there is another $3 billion a year on 
early childhood and preschool tax credits and exclusions for 
employer-provided care.
    One of our witnesses, Dr. Whitehurst, has estimated that 
when you add up the other 33 programs that indirectly support 
early childhood and preschool programs or childcare, the total 
Federal spending in this area is more than $22 billion a year 
today. That is a lot of money.
    That is about the same amount that the U.S. Department of 
Education spends on K through 12 education through the 
Elementary and Secondary Education Act. It is about the same 
amount of money that I propose we take from our Federal 
education dollars from K through 12 and create a $2,100 
scholarship for 11 million low-income children. It is a lot of 
money that we are spending today. We are not spending it as 
well as we could. And in addition, States spend another $5 
billion on preschool education, according to the National 
Institute for Early Education Research, and add to that local 
and private spending.
    The General Accounting Office says this has created a, 
``Fragmentation of effort, some overlap of goals of activities, 
confusion among families and other program users.''
    So what should we do? I suggest that what we did with the 
Child Care and Development Block Grant should be a guide. 
First, the program enabled, instead of mandating. It enabled 
parents to go to school or work. It pays for their childcare 
while they do that.
    Second, it is a voucher. It enables parents to choose that 
childcare.
    Third, it is a grant to States. It gives the States the 
flexibility to say what the Louisiana Superintendent said he 
wanted to do.
    If that were our guide, what could we do with this $22 
billion dollars we already spend? Tennessee's share would be 
about $440 million. If given that kind of flexibility, we could 
increase the number of childcare vouchers from 39,000 to 
139,000. Or, we could expand the State-funded voluntary 
preschool program from 18,000 to 109,000 children. Or, we could 
expand Head Start from about 17,000 3- and 4-year-olds, to 
56,000 children.
    What we should not do is fall back into the familiar 
Washington pattern of a grand promise, lots of Federal 
mandates, and sending the bills to Governors to pay in the end.
    The bill that we are talking about today, Senator Harkin's 
bill, has $27 billion in new funding over 5 years, but it has 
many expensive Washington mandates which, in effect, create a 
national school board for preschool education.
    I hardly have time to list them all. Washington would 
decide the ages of children to be served; staff qualifications; 
teacher salaries; maximum class sizes; length of the school 
day; vision, dental, and health screenings; nutritious meals; 
physical activity programs; health and safety standards; 
development-appropriate standards and curriculum. All that 
would be decided here, not locally.
    This is an extremely expensive requirement that would 
require States to expand their activities, and they would need 
to develop and implement performance measures and targets on 
school readiness, readiness gaps, special education placements, 
grade retentions, more and more provisions looking like a 
national school board.
    We have millions of children who need this kind of early 
education. We can do better than create a national school board 
through 45 programs plus one more. And then, send the bill to 
the States. The States would pay only 10 percent of the cost in 
the first year, but that would rise to 50 percent, and then you 
have got the maintenance of effort provision which is already 
causing States to struggle. This is the same Medicaid model 
that I saw as Governor. Medicaid was 8 percent of the State 
budget when I was Governor; today it is 30 percent.
    I suggest that we do have an alternative. That we should 
take the advice of our witnesses, at least some of them, and 
say that the right way to take the next step is to spend the 
$22 billion Federal dollars we are already spending in a way 
that enables States and parents to choose the very best early 
childhood experience for their child.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    I will just introduce our witnesses, and then we will 
start. I will introduce them first, then we will have you make 
your opening statements.
    I want to thank all of you for participating. All of your 
statements will be made a part of the record in their entirety. 
I read them over last evening. They are great statements, each 
one of them.
    Let me first start by welcoming our first witness, John 
Pepper. Mr. Pepper is the former chairman and CEO of Procter & 
Gamble. Currently, he serves on the advisory board of Ready 
Nation, an organization of business leaders who work to 
strengthen the economy through proven investments in children.
    Over the past 25 years, Mr. Pepper has devoted himself to 
early childhood and youth development. He was a founder of 
Every Child Succeeds, an organization that provides home 
visitation to at-risk children from birth through age three, 
and is a cofounder and member of the executive committee of the 
Cincinnati Youth Collaborative, one of the Nation's most 
successful mentoring and tutoring organizations. Mr. Pepper, 
thank you for being here.
    And now, I am going to yield to Senator Whitehouse for 
purposes of an introduction.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thank you, Mr. Chairman. I am pleased 
to be able to introduce a Rhode Island witness to the HELP 
committee, Hon. Angel Tavares, who is the 37th mayor of our 
capital city, Providence. I have known the mayor for many years 
now, and I am very proud of his service and his dedication to 
our capital city and to the State of Rhode Island.
    Mayor Tavares can personally attest to the importance of 
Head Start and early childhood education. His life journey from 
Head Start through Harvard to becoming the mayor of our capital 
city exemplifies the opportunity that Head Start has provided 
to millions of children across our country, and thousands of 
children in our home State of Rhode Island.
    I am particularly proud of Providence for many reasons: our 
diverse neighborhoods, our strong community ties, our historic 
buildings, our world-class restaurants and academic 
institutions, our artistic flare. I could go on and on, but I 
think you get the point.
    Providence is a pretty special place and it has been a 
special place in education as well, first under mayor, and now 
Congressman Cicilline, and then and now under Mayor Tavares.
    In 2012, Mr. Chairman, Providence was 1 of just 14 
communities across the entire United States to be designated as 
an all-American city by the National League of Cities because 
of the mayor's plan to ensure all students are reading on grade 
level by third grade.
    And Providence Talks, which is an early intervention 
program designed to boost vocabulary development for low-income 
children, recently won the $5 million grand prize from the 
Bloomberg Philanthropies Mayors Challenge out of a field of 
over 300 applicants.
    Today, you will hear a unique perspective about Head Start 
from an elected leader of a major American city who is a living 
example of the benefits of early childhood education. His story 
is proof that a strong start can empower students to pursue and 
achieve their dreams.
    I am pleased to have the chance to introduce Mayor Tavares 
today, and welcome him to our committee.
    And thank you for the privilege of introducing him, Mr. 
Chairman.
    The Chairman. Thank you, Senator Whitehouse and Mayor 
Tavares, we welcome you here. Your leadership in Providence has 
been well noted, not only in Rhode Island, but around the 
country, and we thank you for being here to share your 
experiences, and what you have done in Providence, and your own 
personal background.
    Next, I would like to introduce Dr. Steven Barnett. Dr. 
Barnett is the Board of Governors' professor of education and 
director of the National Institute for Early Education Research 
at Rutgers University. His research includes studies on the 
economics of early care and education, including costs and 
benefits, the long term effects of preschool programs on 
children's learning and development, and the distribution of 
educational opportunities.
    For several years, Dr. Barnett has led the publication of 
the widely heralded series of State preschool yearbooks, 
providing annual State-by-State analysis of progress in public 
pre-K. Dr. Barnett, we welcome you also.
    And finally, I would like to welcome Dr. Russ Whitehurst. 
Dr. Whitehurst is the Brown chair in education studies, senior 
fellow, and director of the Brown Center on Education Policy at 
the Brookings Institution. His work at Brookings focuses on 
choice and competition in education, teacher effectiveness, 
accountability, and preschool services.
    Dr. Whitehurst was the first director of the Institute of 
Education Science, and is widely acknowledged as making 
important contributions in that position to the quality of 
education research, and we welcome you here also, Dr. 
Whitehurst.
    We will start, Mr. Pepper. As I said, your statements will 
be made part of the record.
    I just want to note that at 10:30 we have a vote and so 
where we are at that time, we will recess for a few minutes 
while we run over. It is just one vote and then we will be back 
to pick it up.
    Mr. Pepper, please go ahead and proceed as you so desire.

  STATEMENT OF JOHN E. PEPPER, JR., RETIRED CHAIRMAN AND CEO, 
            PROCTER & GAMBLE COMPANY, CINCINNATI, OH

    Mr. Pepper. Thank you very much, Chairman Harkin, Senator 
Alexander, Senator Casey, and Senator Whitehouse.
    I look forward to being here today because I am talking 
about a subject that I, personally feel, has more to do with 
the future of our Nation and our economy than any other single 
initiative we could be talking about.
    I come here at the age of 75 deeply worried about the 
future of our Nation and our continued failure with whatever 
means are needed to provide quality early childhood development 
for all our youngsters, 0 to 5. And if we do not do it pretty 
soon, we are going to have a big problem in this Nation, 
expanding from what it already is.
    As you heard, I am the former chairman and CEO of P&G, I am 
also the former chairman of the Walt Disney Company, and part 
of the Ready Nation organization. I am finding that business 
leaders today in larger numbers than I have ever seen before 
are deeply concerned about scaling what we know works in the 
area of early childhood education. Why? There are a number of 
reasons that you well know, and I will cover them briefly.
    People are worried and getting tired of talking about a 
growing skills gap; an inability to find people who can fill 
the jobs that need to be done today. We have all learned by now 
that the growth of the brain from 0 to 5 is about 90 percent of 
what happens. We are also learning that what happens during 
that period of time has everything to do with what happens 
afterwards, and how ready a child is to enter kindergarten has 
predictable consequences whether they are ready to read by the 
end of the third grade, and that has predictable consequences 
on whether they will dropout.
    We know from a myriad of studies that this pays out and in 
financial terms, as somebody in business, what I call is the 
financial no-brainer. The only question is how strong is the 
return on investment? You will see 2 to 1, 5 to 1, 10 to 1. I 
do not believe the 10 to 1s, but I have seen enough and gone 
over enough studies to feel that this is something that is rare 
in business, and that is something with enough evidence that 
you get behind it and make it happen on a scaled basis.
    I would emphasize the concern that I and others have about 
our global position. It is not like we are the only people who 
know this is important and 90 percent of the children in most 
Western European countries are already receiving, 90 percent, 
quality early K. China has advanced a plan that will have 70 
percent of their 3- and 4-year-olds by the year 2020 receiving 
not 1, not 2, but 3 years of quality pre-K education.
    This is a new world and unless we take positive action, 
whatever that means may be to get this scaled from where it is 
today, where maybe 1 out of 4, or 1 out of 5 children are 
getting what they need, we have a cancer in this Nation.
    Finally, we are now very encouraged by this. The public is 
getting it. We have done research studies in southwestern Ohio, 
we have done them nationally, and got 85 percent men and women 
in this country of all parties saying all children should have 
quality pre-K. People are ahead of the legislators.
    Fortunately, and I have studied this, I think we do have a 
piece of legislation in front of us in the Strong Start for 
America that has a great deal that is right about it. We have 
done a lot of work in the business community seeing what we can 
rally behind. These are elements of this bill that we like.
    It clearly recognizes the leadership role of the States and 
of the money needed to go through. And, yes, as Senator 
Alexander says, we have got to coordinate money at the State 
level so it is efficiently done, including the private sector.
    It is voluntary. It is voluntary for the States. It is 
voluntary for parents. It does not do mandates. It sets 
reasonable, and this could be argued, quality standards. Now, 
maybe there is something that needs to be worked there; I am 
not the expert. It focuses on children most in need and one 
thing I love about it is it takes the whole of continuum of 0 
to 5 and does not bifurcate this into different silos.
    You could say, ``Let the States do it,'' and many are 
progressing--cities like Denver--but it is my fear that unless 
there is Federal support of the right kind, our progress--
despite the valiant effort of cash-strapped States--is going to 
be incremental and far too slow to achieve the improvement that 
we need.
    I am sure that most everyone will agree with the 
substantive points about the need for quality early childhood 
education, and there could still be some debate about how it 
works, though I think the body of evidence is really 
compelling. But there will be the concerns about the cost. Can 
we afford all this? Where will we find the money? And believe 
me, I take these concerns seriously, and I do not trivialize 
the response to them. We are talking about a lot of money, and 
we have a big deficit to deal with.
    However, in response to those fiscal concerns, I would say 
two things. First, if I could draw a comparison with my 
business career, Procter & Gamble, I would say we are faced 
here, as we in business sometimes are, with a transformational 
investment opportunity; transformational. It is one being 
demanded, I submit, by our consumers, in this case, the public. 
It is being pursued by our competitors, in this case, other 
Nations, though I hope they are also allies. And it is critical 
for the long-term success, and indeed I believe the vaiability, 
of a company, or in this case our Nation and our economy. 
Furthermore, based on the best conservative estimates I have 
seen, it pays out. It comes back, I think, at least 2 to 1.
    That, folks, is an investment which we as executives in a 
business would take as our responsibility to make. To figure 
out how to make it happen and not do it sometime in the future 
when we have worked through all the things, but do it real 
fast, because every year we pass without doing it is another 
generation of kids. And yes, of course, we need to make it as 
sound as possible in the execution, but we ought to get about 
that with a sense of urgency.
    One last part on the cost, I think it has to be put in the 
context as all of you would of our total Federal budget. I have 
got no idea how much money will eventually be put behind this. 
He said $27 billion over 5 years; that is about $5 billion a 
year. But if one were to say it would end up in the range of $5 
to $10 billion per year; that would represent a fraction of 
Federal spending; less than 1 percent of total discretionary 
spending; less than one-quarter of 1 percent of the total 
Federal budget.
    I do not make light of those numbers. They are easy to use, 
but they are a relative piece of perspective, it seems to me, 
and I would submit in terms of the long-term importance of this 
to our Nation of not having a quarter, 30 percent of our kids 
growing up not ready to do it, and we know that fact. We need 
to act on what we know to be true and that is find a way to get 
this scaled in the next few years so it is not 25 or 30 
percent, but it is 80 or 90 percent.
    I hope and pray, having been down here in Washington on 
this subject more than once that the way will be found to get a 
bipartisan piece of legislation about on this soon and not 
waiting for some whole new presidency or something. And get 
something done, which all of you know, we have got to do, and 
that is get this quality education development to all of our 
kids.
    I thank you for letting me express these deeply felt 
convictions and hopes, and I will stop there.
    [The prepared statement of Mr. Pepper follows:]
               Prepared Statement of John E. Pepper, Jr.
                                summary
    ReadyNation/America's Edge is an organization that includes dozens 
of current and former CEO's dedicated to strengthening our companies, 
our economy and our Nation through proven investments in children. 
Providing quality early development and education to our children--
especially the most vulnerable--will determine the future of our Nation 
and its economy more than any other initiative we can take.
    Business leaders are deeply worried about the current and growing 
skills gap--an inability to find individuals with the skills our 
companies now require. We know we are not going to close that gap 
unless we start early to prepare our children for academic success, as 
90 percent of brain development occurs by age 5. This early development 
determines a child's readiness for kindergarten, which greatly affects 
their likelihood of future academic success.
    I support the Strong Start for America's Children Act. I believe 
the Federal Government has a crucial role to play in jump starting the 
effort and funding at the State and local levels to bring to scale 
programs that work. We know that high quality early childhood 
development and education programs are a sound fiscal investment. Based 
on the most conservative cost estimates available, this investment will 
pay for itself with an ROI of at least 2:1.
    The Act contains specific provisions which business leaders like 
myself embrace, including recognizing the leadership role of the 
States, providing the flexibility to direct funds to multiple delivery 
systems, setting reasonable and needed quality standards, demanding 
accountability, and maintaining voluntary participation, at both the 
State and the individual level.
    Various polls have consistently shown that the majority of the 
American public support these programs and our international 
competitors are pursuing similar investments. While the cost of this 
bill warrants serious consideration, we are faced here, as we in 
business occasionally are, with a ``transformational investment 
opportunity.'' Without such Federal support I fear our progress, 
despite the valiant effort of cash-strapped States, will be far too 
slow to achieve the improvement in scale we need.
    Failing to meet the need for these services has an impact on our 
global competitiveness. The Strong Start for America's Children Act is 
an opportunity to truly change the landscape of how our youngest 
children are educated, with potentially far-reaching consequences for 
the long-term viability of our Nation and its economy.
    I hope you will act in a bi-partisan fashion to advance this 
legislation so that we do develop the more skilled and educated 
workforce that will fuel our economic growth and keep the United States 
as a leader in our competitive global economy.
                                 ______
                                 
    Good morning Chairman Harkin, Ranking Member Alexander, members of 
the committee and guests.
    Thank you for inviting me here today. I am grateful for this 
opportunity to present my thoughts to you today because I believe that 
providing quality early care and development to our children, 
especially the most vulnerable, will determine the future of our Nation 
and its economy more than any other initiative we can take.
    I speak to you as the former chairman and CEO of Proctor & Gamble 
and as a member of Ready Nation/America's Edge, an organization that 
includes dozens of current and former CEO's dedicated to strengthening 
our companies, our economy and our Nation through proven investments in 
children.
    Why are business leaders speaking out as never before in support of 
quality early childhood education? There are several reasons:

    1. We are deeply worried about the current and growing skills gap--
an inability to find individuals with the skills our companies now 
require.
    Driving these gaps are the rising education requirements for jobs 
of the future. Experts predict that of the 55 million job openings 
through 2020, 65 percent will require post-secondary education. Yet 
nationwide, 20 percent of our high school students fail to even 
graduate on time and the rates of high school graduation in 
impoverished areas are generally much worse.
    2. We know we are not going to close that gap unless we start 
early--90 percent of brain development occurs during the ages 0-5.
    In order for American businesses to compete successfully in a 
global economy, employees must have the knowledge, skills and abilities 
to be communicators, collaborators and critical thinkers. Research 
confirms that the foundation for these social and fundamental education 
skills is developed during a child's earliest years.
    The first 5 years of life are a unique period of brain development, 
which lays the foundation for life-long learning. The achievement gap 
starts to open as early as age 2 or 3, when research shows that low-
income children know half as many words as higher income children. 
Children also show a significant achievement gap in math by 
kindergarten entry. And early math skills predict later skills in both 
math and reading. By the time children reach kindergarten, they are not 
only far behind in vocabulary, but on pre-literacy and pre-math skills 
as well. This disparity can hurt our ability to build the science, 
technology, engineering and mathematics workforce that our country so 
urgently needs.
    3. We know that being ready for kindergarten has everything to do 
with what follows and we know that we have proven programs that get 
kids ready.
    A longitudinal research study in my own region of southwest Ohio 
shows that 86 percent of kids who were ready for kindergarten were 
reading on grade level by the end of the third grade. Only 59 percent 
of kids who were not ready for kindergarten were reading on grade 
level. ``So what?'' someone might ask. Kids not reading on grade level 
by third grade are four times more likely to drop out than those that 
are; and 11 times more likely if they are poor.
    High-quality early childhood education can prepare children to 
start school ready to learn. It can bring student performance up to 
grade level, boost graduation rates, and lead to a greater likelihood 
of attaining a 4-year degree and being employed consistently. Recent 
studies of high quality State programs demonstrate that early childhood 
education programs--if they are of high enough quality--can deliver 
solid results.
    By the time at-risk children in disadvantaged districts served by 
New Jersey's 2-year pre-kindergarten program reached the 4th and 5th 
grades, they were three-quarters of an academic year ahead in math, 
compared to their peers who did not attend, and two-thirds of an 
academic year ahead in literacy. Attending preschool also cut the 
likelihood of being held back in school by 40 percent and the 
likelihood of needing special education services by 31 percent.
    State programs in Michigan, Pennsylvania, North Carolina and others 
also showed positive academic gains. These recent studies reinforce 
long-term studies of high-quality early education programs that show 
impressive education outcomes:
    For example, a long-term study of the Perry Preschool Program in 
Michigan tracked two groups of children in a randomized study. Children 
who participated in the program were 44 percent more likely to graduate 
from high school.
    Children who participated in the Abecedarian early learning program 
in North Carolina were four times more likely to graduate from a 4-year 
college and 42 percent more likely to be consistently employed as 
adults.
    A long-term study of Chicago's Child-Parent Centers found that 
participants in the pre-K program were 29 percent more likely to have 
graduated from high school.
    4. We know from myriad studies that high quality early childhood 
development and education programs are a sound fiscal investment.
    In business, we rarely have the luxury of making an investment 
decision with as much evidence as we have to support the economic value 
of investing in early childhood development and education.
    Long-term studies show that high-quality early learning programs 
cut crime, welfare and other societal costs so much that they save 
money. A study by Steve Aos of the Washington State Institute for 
Public Policy (WSIPP) found net economic benefits of $22,000 per child 
served.
    Put bluntly, in my terms, they are a financial no-brainer. The only 
question is ``how strong is the ROI?'' The answer: Two or three or more 
to one. It is rare that we in business have as much evidence on the 
economic value of an initiative as we have on investing in early 
childhood development and education.
    5. The unmet need for these services and the impact on global 
competitiveness.
    Other countries are doing far more than we are in supporting the 
development of our youngest. Today, less than half of our 3- and 4-
year-olds are in quality pre-K programs. Yet, some other developed 
countries are covering 90 percent of their children. And it's not only 
``developed'' countries. China has committed to having 70 percent of 
its 3- and 4-year-olds receiving not 1, or 2 but 3 years of pre-K by 
the year 2020.
    The sad truth is that in 2012, more than half of our States served 
30 percent or fewer of their 4-year-olds. Another 10 States did not 
even have State pre-school programs.
    Given the strong research, it is easy to see why parents across the 
country want to get their children into high quality pre-school 
programs. Unfortunately for many, high quality pre-K is as out of reach 
as college tuition. Early learning programs that meet high-quality 
benchmarks cost an average of $9,000 per child, per year, depending on 
the State. That can be as much as in-State tuition at public 
universities, which is way beyond what many working families can afford 
for their preschoolers.
    And while policymakers, educators and parents in many States would 
love to see quality pre-K offered to more children, virtually all face 
financial challenges that are making that very difficult.
    We need public investments, from State and Federal sources, to help 
families afford pre-K. States that have been working hard to do the 
right thing for their families have been making progress, but it's such 
an issue of national interest that it needs to be a State and a Federal 
priority.
    Given what we know about the positive impact of early development 
and the huge gap we have today in providing it, this will be a long-
term cancer until we scale proven programs to all children in need.
    6. Finally, we are advocating strongly for this because we know the 
public wants it.
    Various polls have consistently shown that the American public 
agrees on the importance of all children having the benefit of quality 
pre-K. A recent poll found more than 85 percent think that ensuring 
that children get a strong start should be a national priority. A 
majority support adding revenue to fund it.
         the strong start for america's children act (s. 1697)
    Fortunately, we have an opportunity before us to truly change the 
landscape of how our youngest children are educated.
    The Strong Start for America's Children Act, introduced by Senator 
Tom Harkin, would create and fund a State-Federal partnership that 
would enable States across the country to provide high quality pre-K 
for 4-year-olds from low- and moderate-income families in the Nation. 
It would also expand access to high-quality early development programs 
from birth through age 3.
    I am glad the Strong Start for America's Children Act is in front 
of you. I believe the Federal Government has a crucial role to play in 
jump starting effort and funding at the State and local levels to scale 
programs that work.
    I am very pleased that this Act contains specific provisions, which 
business leaders embrace:

    1. It recognizes the leadership role of the States, providing 
flexibility to direct funds to multiple delivery systems at the local 
level, including the private sector;
    2. It is voluntary, for the States and for the parents;
    3. It sets reasonable and needed quality standards and it demands 
accountability;
    4. It focuses on children most in need; and
    5. It provides support for the entire 0-5 development continuum.

    Without such Federal support I fear our progress, despite the 
valiant effort of cash-strapped States, will be far too slow to achieve 
the improvement in scale we need.
    Many people are understandably concerned about the cost of such 
programs in a time when budget cuts are the norm. But failing to invest 
in children when they are very young means a higher cost to society, 
and business, down the road.
    I take these concerns seriously, and I wouldn't trivialize a 
response to them. We are talking about a lot of money, and we have a 
big deficit to deal with. However, in response to such fiscal concerns 
I would say two things.
    First, if I could draw a comparison to my business career, we are 
faced here, as we in business occasionally are, with a transformational 
investment opportunity.
    It is one being demanded by our consumers (the public), it is being 
pursued by our competitors, and it is critical to the long term success 
and perhaps very viability of the company--or in this case the Nation 
and its economy. Furthermore, based on the most conservative cost 
estimates available, this investment will pay for itself at least 2:1.
    That ladies and gentleman is an investment which we as executives 
would take as our responsibility to make; we would find a way to do it, 
and do it now--not later, obviously being sure that it is as sound as 
possible in its execution.
    Also, the cost of this program, it seems to me, has to be put in 
the context of the total Federal budget. While I have no idea of the 
amount of funding that would eventually be attached to the programs 
enabled by his Act, if it were to be, say, in the range of $5-$10 
billion per year, that would represent a fraction of Federal spending--
less than 1 percent of total discretionary spending and approximately 
one-quarter of 1 percent of the total Federal budget.
    I respectfully submit that viewed in the perspective of its long-
term importance to our country, we should not flinch from figuring out 
how to make it happen.
                               conclusion
    Business leaders are in good company when it comes to recognizing 
the value of high quality early childhood development and education. 
Parents, educators, and policymakers around the Nation are strongly in 
support of it. There is also a growing coalition of leaders from the 
military, law enforcement, and faith communities that have joined 
business leaders in support of providing high quality services in this 
area.
    I support the Strong Start legislation, particularly the increased 
level of Federal resources and ability of States to structure services 
in a way that makes sense locally, within broad, widely recognized 
parameters of quality. This program needs to be a true partnership 
between the Federal and State governments.
    I hope you will act in a bi-partisan fashion to advance this 
legislation so that we do develop the more skilled and educated 
workforce that will fuel our economic growth and keep the United States 
as a leader in our competitive global economy.
    I thank the committee for allowing me to express these deeply felt 
convictions. I believe that providing a quality start for all our 
children is the moral and social and economic issue of our generation. 
It is altogether clear that it is critical to offsetting the depressing 
impact of poverty on a child's ability to fulfill his or her potential.

    The Chairman. Thank you very much, Mr. Pepper. I can assure 
you that this committee has always worked in a bipartisan 
fashion. In fact, we are pretty proud of the things that we 
have done in the past couple of years here with both sides, and 
I am sure that we can put our heads together on this effort 
too. That is why we are going to work together to try to get us 
as much of a bipartisan bill as we possibly can. We are going 
to try our best. We can assure you of that.
    Mayor Taveras, welcome to the committee, your leadership is 
well known on this issue. Please proceed.
    Mr. Taveras. Thank you, Mr. Chair, and thanking Senator 
Alexander and Senator Casey, and I would like to say special 
thank you to Senator Whitehouse for the introduction and for 
his representation of Rhode Island here in the Nation's 
capital.
    If I could, Mr. Chair, I would like to deviate for one 
moment to just point out one personal thing and that is that I 
sit before you today as mayor of the city of Providence, RI. My 
first involvement in public service, and certainly with being 
elected to office, was campaigning for a wonderful Senator from 
Iowa in New Hampshire in 1992.
    I thank you for being an example for me and for many, many 
others for years to come.
    The Chairman. We are all allowed at least one political 
mistake in our lifetime.

STATEMENT OF THE HONORABLE ANGEL TAVERAS, MAYOR OF PROVIDENCE, 
                         PROVIDENCE, RI

    Mr. Taveras. Thank you, Mr. Chair. I would like to really 
speak for the children that this Act is intended to help.
    As has been mentioned, I am a Head Start baby. My parents 
are from the Dominican Republic, did not go to high school, and 
came to New York City in the 1960s looking for a better life. I 
was born in 1970 and raised in Providence, and I was in Head 
Start because my mom knew of the program and was able to put 
her young child in Head Start. It has made a very big 
difference in my life.
    In fact, when I was a student at Harvard, I spoke to my 
roommate from Poughkeepsie, NY and he was a Head Start baby. 
And we talked about that and we noticed that a lot of the 
students, particularly minority students at Harvard that we 
knew, were all Head Start graduates. And at that time, back in 
the late 1980s, early 1990s, we said, ``There must be something 
about that program.'' We did not know the research. We did not 
know the data, but we thought it was interesting that so many 
of us had been involved in Head Start early on. That has been 
something that has influenced me as mayor of the city of 
Providence and one of the reasons I have focused so much on 
early childhood education.
    Right now in the city of Providence, two-thirds of our kids 
are showing up for kindergarten already behind on national 
literacy benchmarks and we need to change that. That is why in 
the city, I have decided to focus, as Senator Whitehouse 
mentioned, on the early years of life, 0 to 5, as the Chairman 
has pointed out previously. Thanks to Mayor Bloomberg and 
Bloomberg Philanthropies, we now have a program that is 
designed to reach all of our children in the city of Providence 
and focusing with parents on how important it is to talk to 
your child. How much is going on in the first 5 years of life 
for your child. How the brain is developing and the vocabulary 
is expanding.
    I am proud to tell you that the program is well underway. 
We have already seen changes, positive changes, in the behavior 
and the development of the children where they are hearing many 
more words, and we know that this is going to help further down 
the road as they enter kindergarten. And so, we are very 
grateful for that opportunity.
    In addition, we are working on pre-K because we know that 
it is the best investment that we can make. We have a pilot 
program in Rhode Island. We are looking to expand it and this 
type of legislation will help us to do exactly that. It will 
give us the flexibility to expand it and to grow it, to invest 
the money now early on, so that we do not have to pay later as 
the chairman mentioned earlier. And so, this legislation is 
extremely important for that as well.
    The last thing that I would say to you is that grade level 
reading and the witness talked about that a little bit earlier; 
one of the best predictors that we have for future success, is 
whether a child is reading at grade level by third grade. We 
were fortunate enough to be an All-America City for Grade-Level 
Reading 2012.
    There are three components to grade level reading. The 
first is early childhood education, making sure that we expand 
early childhood opportunities for our children. The second is 
chronic absenteeism, making sure that children are in school 
and not chronically absent. And the third is summer learning 
loss and combating that, making sure that we have that.
    What you are doing here really has a chance to impact 
children across this country and give them an opportunity to 
one day sit here on this side of the table or there, and talk 
to others about the journey that they have traveled, and open 
and create opportunities to make sure that all of our children 
have a chance to succeed.
    Thank you, and to the committee for the work that you are 
doing, I look forward to working with you on this.
    [The prepared statement of Mr. Taveras follows:]
           Prepared Statement of the Honorable Angel Taveras
    Chairman Harkin and Honorable Members of the committee, my name is 
Angel Taveras and I have the honor of serving as the 37th Mayor of the 
city of Providence, RI. It is my distinct pleasure to join you today 
and provide testimony in support of the Strong Start for America's 
Children Act.
    Mr. Chairman, I applaud your leadership in drafting this 
legislation and want to echo something you said when introducing the 
bill: ``The investment we make as a nation in early learning will pay 
dividends for generations to come.''
    I'm living proof of that statement. Let me begin by sharing with 
you a little about my personal story. I am a proud Head Start graduate. 
I grew up on the South Side of Providence, in publicly subsidized 
housing, where I was raised by a hardworking single mother who worked 
second shift in Rhode Island factories to support my sister, my brother 
and me.
    I graduated from the Providence Public School system. I often 
credit my third grade teacher Mrs. Donaldson for encouraging me to 
pursue my passion of becoming an attorney despite having few role 
models in my life to emulate. Thanks to her and the countless other 
educators who supported me along the way, I attended Harvard 
University, the Georgetown University Law Center and in 2011 was 
inaugurated as the first Latino Mayor of the city of Providence.
    I can say with confidence that the success I have enjoyed as an 
adult would not have been possible without the tremendous support I 
received as a young person and specifically the access that I had to 
quality early education. That is why I am so glad to be here today to 
speak in support of the legislation that is before your committee.
    The Strong Start for America's Children Act would launch a 10-year 
Federal and State partnership designed to expand and improve early 
learning opportunities for America's youngest learners. Specifically, 
this legislation would create America's first Federal funding formula 
for high-quality, full-day pre-kindergarten for 4-year-old children for 
families earning up to 200 percent of the Federal poverty level. And 
importantly, this legislation does not sacrifice quality in the name of 
expanding access: participating States must ensure that educators are 
highly qualified, that student-teacher ratios are low and that 
instruction is grounded in evidence and developmentally appropriate 
practices.
    The Chairman and other committee members are aware, but I feel it 
bears repeating: early childhood education is critically important for 
the development of our young people and the communities in which they 
live. Studies have demonstrated that participation in pre-kindergarten 
programs help young people develop important cognitive, behavioral and 
problem-solving skills. Pre-kindergarten graduates are more likely to 
attend college, maintain a full-time job, and have health insurance. 
According to the Economic Policy Institute, lifetime economic benefits 
realize a return-on-investment of as much as $11 for each dollar 
invested. It is no surprise, therefore, that 89 percent of Americans 
surveyed say it is important to make early education and child care 
more affordable for working families.
    As Mayor, I have made early childhood learning a top priority for 
my administration. Our efforts to ensure that every child is reading on 
grade level by the end of third grade have won Providence distinctions 
from the National Civic League, the Annie E. Casey Foundation, 
America's Promise Alliance and other civic organizations.
    Last March, I was proud when the city of Providence was named the 
Grand Prize winner in the 2013 Bloomberg Philanthropies' Mayors 
Challenge. Our winning initiative, ``Providence Talks,'' responds 
directly to research that shows that children growing up in low-income 
households hear up to 30 million fewer words than their middle- and 
high-income peers by their fourth birthday. In Providence, we know that 
approximately two-thirds of our kindergarten registrants arrive behind 
on national literacy benchmarks on the very first day of school. Thanks 
to a $5 million investment from Bloomberg Philanthropies, Providence is 
empowering parents and caretakers with the tools and resources 
necessary to understand and strengthen their household auditory 
environments.
    Rhode Island launched its first State-sponsored pre-kindergarten 
program in 2009. By most accounts, the program has been a tremendous 
success: according to the National Institute for Early Education 
Research (NIEER), Rhode Island's State pre-kindergarten meets all 10 
benchmarks for quality standards. But while Rhode Island maintains a 
high quality program, unfortunately access is severely limited: only 1 
percent of Rhode Island's 4-year-olds are enrolled in our State-
financed preschool program, compared to highs of 74 percent in Oklahoma 
and 65 percent in Vermont, and a national average of approximately 28 
percent of 4-year-olds enrolled in State-financed pre-kindergarten 
programs.
    I know that the sad and simple truth is that if we choose not to 
make investments in the critical years of early development, we will 
pay for them down the line in the forms of remedial instruction, 
reduced economic productivity and criminal justice costs.
    In conclusion, I urge the committee and all your Senate colleagues 
to make the critical investments in early childhood education as called 
for in the Strong Start for America's Children Act. Children in 
Providence, RI, and throughout the Nation cannot wait for future 
leaders to take action: they demand that we take action now to ensure 
that they have access to the same life-changing opportunities that so 
many of us enjoyed as young people.
    On behalf of young people in the city of Providence and in the 
State of Rhode Island, I strongly encourage the committee's full 
support for the Strong Start for America's Children Act.
    Thank you for the opportunity to address your committee, and I am 
happy to answer questions from the committee.

    The Chairman. Thank you very much, Mayor. Appreciate that 
and we will look forward to working with you.
    And now, the buzzer has gone off. We do have a vote. I am 
going to wait and hear Dr. Barnett's testimony, then I will 
take a break. Did you want to go beforehand and then come back 
and take over from me?
    Senator Alexander. I would like to hear him. What would you 
like to do?
    The Chairman. Can we go ahead and do that now before we go? 
Let us do that.
    Senator Alexander. OK.
    The Chairman. Dr. Barnett, please proceed.

   STATEMENT OF W. STEVEN BARNETT, Ph.D., DIRECTOR, NATIONAL 
INSTITUTE FOR EARLY EDUCATION RESEARCH, RUTGERS UNIVERSITY, NEW 
                         BRUNSWICK, NJ

    Mr. Barnett. Thank you, Mr. Chairman and members of the 
committee.
    I am pleased to testify before you this morning. Thanks for 
the introduction. I would like to add, as an economist, I have 
studied investments in early learning and development for some 
30 years now, and did the first benefit cost analyses based on 
data, actual data through adulthood for the period preschool 
and Abecedarian studies which, I am sure, you have heard of.
    Strong Start for America's Children Act has a strong 
scientific foundation. The first 5 years are a time of rapid 
development during which good education can significantly 
strengthen the foundations for later success in school and 
life. And yet, many American children enter school poorly 
prepared to succeed, in part, because few attend good 
preschools.
    Often, parents earn too much to qualify for public 
programs, but too little to afford high quality private 
preschool. And many public programs are inadequately funded to 
provide quality, even for those children in poverty.
    Funding per child in State preschool programs has been 
declining. In fact, it is down over $1,000 per pupil in the 
last decade, and access to good preschool remains lowest for 
those children who would benefit the most.
    Comprehensive reviews of the evidence including statistical 
summaries or meta analyses find that preschool programs can 
produce lasting effects on learning and development. Strong 
preschools contribute to school and life success including 
increased achievement and educational attainment, decreased 
behavior problems and crime, increased earnings and even better 
health.
    As preschool is just the first lap in a longer race, strong 
programs are designed to produce very large initial effects to 
offset diminutions in effect size after school entry. It is a 
misnomer to call this diminution, fadeout. Some effects persist 
and much of the decline is likely due to, first, compensatory 
efforts by schools for children who did not attend preschool. 
And second, benefits to preschool for whole classes in 
subsequent grades including the children who did not go to 
preschool.
    For example, when fewer children enter a kindergarten class 
needing remedial help or disrupting classes, every child in the 
classroom, including those who did not go to preschool, are now 
in control groups.
    Fortunately, some programs produce larger effects than 
others and we know the features of highly effective programs. 
These include: well-educated, adequately paid teachers focused 
on explicit instruction; small classes and a high teacher-child 
ratio to increase one-on-one and small group time; 
comprehensive standards for learning and teaching with an 
aligned curriculum; and strong support for teachers through a 
continuous improvement system that includes evaluation, 
reflection and planning, coaching and supervision.
    Head Start provides one example of the effectiveness of 
this formula. After the National Impact Study in 2002, Head 
Start was reformed. Data collected from 2003 to 2009 show these 
reforms worked. Head Start teacher qualifications and language 
and literacy practices in the classroom improved, so did 
children's gains in language and literacy.
    New Jersey's Abbott Preschool Program provides an even 
stronger proof of the principles embodied in Strong Start. By 
implementing these principles for all 3- and 4-year-olds in 32 
school districts, State policy dramatically raised the quality 
of participating providers; Head Start, private and public 
school, all working together in the same system.
    The result has been dramatic increase in quality, 
substantial and persistent increases in children's test scores, 
most recently measured at Grades 4 and 5, and large reductions 
in grade repetition and special education through Grade 5. 
These results are similar to those produced in the Perry 
Preschool and other model program studies.
    I would like to invite the chair and other members of the 
committee to visit these programs in New Jersey, see what high 
quality preschool looks like, see the positive consequences for 
children, families, and communities when all children are 
offered an excellent preschool education.
    Some 2,000 years ago, a teacher asked in the Sermon on the 
Mount, ``If your child asks you for bread, would any of you 
give him a stone?'' In America today for preschool children, 
the answer too often is, ``Yes.'' Our children deserve better. 
We know the right answer. Let us act accordingly.
    Thank you.
    [The prepared statement of Mr. Barnett follows:]
                Prepared Statement of W. Steven Barnett
                                summary
    The Strong Start for America's Children Act has a strong scientific 
foundation. Too many American children enter school poorly prepared to 
succeed. The first 5 years are a time of rapid development, when high 
quality early education could significantly improve school readiness 
and later success. However, few children have access to high-quality 
preschool, and current public programs have insufficient resources to 
support quality for even those in lower income families. Funding per 
child in State preschool programs has been moving in the wrong 
direction, and access to high quality preschool is lowest for those who 
would benefit most.
    Comprehensive reviews of the evidence, including multiple 
statistical summaries of the research findings, demonstrate that 
preschool programs can produce strong and lasting effects on learning 
and development. These, in turn, contribute to improved school and life 
success, better health, and other positive adult outcomes, including 
increased achievement and educational attainment, decreased behavior 
problems and crime, increased earnings, and better health.
    To counter the diminution in effects after school entry preschool 
programs should produce large initial effects. However, it is a 
misnomer to call this diminution ``fade-out,'' partly because some 
effects persist, but also because much of the decline is likely due to 
compensatory efforts by schools for children who did not attend 
preschool and the ways in which preschool benefits entire classes in 
subsequent grades whether or not they attended preschool.
    Some programs produce larger effects than others, and we know the 
features of highly effective programs. These include well-educated, 
adequately paid teachers; small classes and a high teacher-child ratio; 
comprehensive standards for learning and teaching that are also 
embodied in the curriculum; and strong support for teachers through a 
continuous improvement system that includes an emphasis on evaluation, 
reflection, and planning with coaching and supervision.
    Head Start is more effective than is generally acknowledged and has 
been significantly improved since the National randomized trial of 
children who attended Head Start in 2002 that found modest effects. The 
National Impact Study underestimated effects because of the study 
design, but important lessons can be learned from the results of 
reforms since 2002. Data collected in 2003, 2006, and 2009 show large 
increases in the size of Head Start children's language and literacy 
gains, at the same time that the program raised teacher qualifications 
and improved practices regarding language literacy.
    New Jersey's Abbott preschool program provides a demonstration 
proof of the principles embodied in Strong Start. By implementing these 
for all 3- and 4-years-olds in 32 school districts, State policy 
dramatically improved the quality of preschool education. The result 
has been substantial and persistent gains in children's test scores, 
most recently measured at grades four and five, and large reductions in 
grade repetition and special education through grade five. These 
results are similar to those produced by model programs with similar 
characteristics.
                                 ______
                                 
    Mr. Chairman and members of the committee, I'm pleased to testify 
before you. My name is Steven Barnett. I direct the National Institute 
for Early Education Research (NIEER) at Rutgers University where I am a 
Board of Governors Professor of Education. As a unit of Rutgers 
University, NIEER conducts, archives, and disseminates research to 
inform policymaking regarding early childhood care and education. I am 
an economist, and I have studied investments in early learning and 
development for more than 30 years, including publishing with 
colleagues the first benefit-cost analyses of the economic returns to 
the Perry Preschool and Abecedarian programs, based on actual data from 
preschool to adulthood. In addition, I am the lead researcher on an 
annual survey of State preschool policy that has collected data on 
access, quality standards, and funding for more than 10 years.
    The scientific basis for the Strong Start for America's Children 
Act overall is extensive. It is well established that the first 5 years 
are a time of rapid development that is sensitive to a child's 
experiences. It is equally well established that many young children 
have less than optimal conditions for their development, with those 
whose parents have the lowest incomes and least education most 
disadvantaged (Barnett & Lamy, 2013; Nores & Barnett, in press). This 
problem is not limited to children in poverty; indeed an unacceptably 
high percentage of children from middle-income families are poorly 
prepared to succeed in school and are far too likely to fail a grade 
and to drop out of high school.
    Yet, rigorous studies find that educational programs over the first 
5 years can meaningfully enhance early learning and development, and 
thereby produce long-term improvements in school success and social 
behavior that generate benefits to individuals and the broader society 
(Barnett, 2008, 2011). Positive outcomes found in rigorous studies 
include increased achievement, decreased grade repetition and special 
education, increased educational attainment, decreased behavior 
problems and crime, decreased risky behaviors like teen pregnancy and 
smoking, and improved health (Barnett, 2008; Campbell, et al., 2014).
    My brief remarks today will be limited to just one part of Strong 
Start--high-quality preschool education for children at ages 3 and 4. 
Although adequately investing in every year of a child's life is 
important, I focus narrowly on current public support for such 
programs, what is known about the effects of high-quality preschool 
education, and what should be done to produce substantive gains for 
children in large-scale public programs.
    Although some might point to a proliferation of public policies 
supporting preschool education, in fact there are only 3 large sources 
of support for preschool programs--child care subsidies, including the 
Food Program; Head Start; and State-funded pre-K programs (Haskins & 
Barnett, 2010). Taken together, they are insufficient to support 
quality preschool education for even those 3- and 4-year-olds below 200 
percent of the Federal Poverty Level. Only about half of American 
children attend any kind of preschool program at ages 3 and 4, and for 
about 30 percent this is a publicly supported program (Nores & Barnett, 
in press). Moreover, most programs that children attend are not high 
quality. Even families with relatively high incomes who purchase 
private preschool do not, for the most part, find good programs.
    Over the last decade, the only real expansion has been in State-
supported pre-K for 4-year-olds and much of this has been through 
adoption of Head Start and private programs (Nores & Barnett, in 
press). In some States, that has meant that the quality of these 
programs was substantially improved, but in others it has not. 
Standards are too low and there is far too little money in the system 
across all programs to support high quality, educationally effective 
programs (Barnett & Carolan, 2013).
    This situation is unfortunate and calls for change. Comprehensive 
reviews of the entire literature on preschool program effectiveness, 
including statistical summaries--often called meta-analysis--find that 
high-quality preschool programs have substantial positive impacts on 
cognitive development and on a variety of other child outcomes, 
including school success and socio-emotional development. They also 
find that even when cognitive advantages decline after school entry, 
they do not disappear. As I will explain, it is not accurate to 
characterize this pattern entirely as ``fade out.''
    The research is clear that if society wishes to produce substantive 
long-term gains for children from preschool education, public policies 
must support high-quality programs that produce relatively large 
initial impacts. Therefore, it is important to ask what program 
features are associated with larger gains. A recent comprehensive meta-
analysis (Camilli, et al., 2010) found that explicit instruction and an 
emphasis on working with children one-on-one and in small groups was 
associated with larger cognitive gains. It also found that providing 
comprehensive services, such as health and family services, was 
associated with smaller cognitive gains. I interpret this finding as 
indicating that trying to do too much with too little can result in 
losing a focus on strong teaching, which must be at the core of a 
successful preschool education program. Based on the meta-analysis, 
moderate improvements in these aspects of program design could greatly 
enhance long-term program effects.
    Another meta-analysis found that average estimated effects have 
declined in more recent studies (Duncan & Magnusson, 2013). Possible 
explanations include: older research more often studied intensive model 
programs; it has become more common for control groups to attend 
another preschool program; and, State funding for quality has declined, 
potentially weakening public programs. For example, the well-known 
Perry Preschool and Abecedarian programs had adult-child ratios of 1 to 
6 or 7 which has not been replicated in public programs. Head Start 
evaluations have included in the control group children who attended 
State pre-K, which did not exist when older Head Start studies were 
conducted. Perhaps most worrying, NIEER's annual survey of State-funded 
preschool programs finds that funding per child declined by more than 
$1,000 over the last decade, and it would be surprising if that had not 
undermined program quality and effectiveness (Barnett & Carolan, 2013). 
Some of the largest State pre-K programs serving the most children, 
including Florida and Texas, have especially low-quality standards.
    Despite its advantages, meta-analysis is at best a blunt instrument 
for identifying the features of highly effective programs. Another 
approach is to ask what those programs that produced very large long-
term gains for children have had in common. Frede (1998) reviewed the 
model programs that produced large impacts and found that they shared a 
use of reflective teaching practices, a strong emphasis on language 
development, and a school-like discourse pattern including initiation-
reply evaluation sequences and categorization. These practices, and 
intensity and continuity of teacher-child interaction, were facilitated 
by a highly developed curriculum, training and professional 
development, reasonable ratios, and strong monitoring and supervision. 
To this can be added levels of teacher qualifications and compensation 
comparable to that in the public schools. All of the programs that have 
been found to produce large long-term gains in rigorous studies have 
had these features. There are no counter-examples in rigorous studies 
of preschool programs with less-educated teachers, large classes, and 
poor pay producing large long-term gains in children's learning and 
development.
    I do not mean to suggest by this that current public programs are 
typically ineffective, or that their benefits do not exceed their 
costs. First, public preschool programs, almost without exception, are 
found to improve academic readiness for school, sometimes quite a lot. 
Second, there is substantial evidence of persistent impacts on 
achievement well beyond school entry, even though these are somewhat 
smaller than short-term impacts. Some slippage between initial and 
later effects should be expected for any preschool program (Barnett, 
2011). High quality preschool prepares children to start off well. It 
does not guarantee that nothing later interferes with their progress. 
In addition, to the extent that schools focus more resources on 
children who are behind to help them catch up--an emphasis no doubt 
accentuated by No Child Left Behind--most studies of preschool will 
tend to underestimate lasting effects.
    When interpreting the research, it is important to understand that 
most studies of the effects of preschool programs are not designed to 
capture the systemic effects of preschool education. For example, bad 
behavior in the classroom is of concern not only because it impairs 
that child's ability to learn, but also because disruption reduces the 
learning of all the other children in a class. If preschool leads some 
children to better behavior in kindergarten, it benefits everyone, 
including the control or comparison group children who did not attend 
preschool. Similarly, if preschool attenders enter kindergarten much 
better prepared to meet its learning goals, then teachers can spend 
more time and effort on other children who are less well-prepared.
    So what happens when we conduct a large scale randomized trial or 
other rigorous evaluation comparing children who attend preschool to 
others in the same schools who do not? When children in the study enter 
kindergarten, the schools have a lighter overall load because of the 
benefits from preschool and they offer more compensatory services (on 
average) to the children who did not attend, helping them to catch up 
over time. It is possible for all of the children in the affected 
schools to have higher achievement, whether or not they went to 
preschool, and this will not be captured at all by the evaluation. It 
would be a mistake to interpret this as preschool's effects having 
faded out, when in fact all children converged to a higher level.
    Evidence of compensatory behavior by schools is in fact common, 
even in studies that show persistent cognitive advantages after school 
entry. It is usual, particularly in studies where initial impacts were 
large, to find lower rates of grade repetition and special education 
for children who go to preschool. This is a significant source of cost-
savings from preschool, but it is also likely that these additional 
services received by those who did not go to preschool are successful 
at helping the comparison children in the study catch up, mimicking 
``fade out.'' When initial effects of preschool are relatively modest, 
or focus on quickly learned skills like letter and number knowledge, 
compensatory efforts within the classroom may be sufficient to rapidly 
catch up those who did not go to preschool (of course, this does not 
mean kindergarten teachers could produce the same results if no 
children had gone to public preschool).
    This type of compensatory behavior in schools is, of course, at 
best a partial explanation for differences in outcomes across studies 
and the disappointing results of some public programs. As indicated 
earlier, program features do matter. While the Head Start national 
impact study likely underestimates Head Start's impacts, it still 
appears that effects are smaller than anyone would want. The Camilli, 
et al. (2010) meta-analysis and other evidence clearly predict such a 
result. Head Start has been given a huge mission and asked to do too 
much with too little. Teacher qualifications and pay were too low and 
there was too little focus on intentional teaching. That is why it is 
particularly instructive that Head Start reforms over the last decade 
demonstrate that changing such policies can improve outcomes for 
children.
    Head Start's Family and Child Experience Surveys (FACES) measured 
children's learning during a year of Head Start in the 2003, 2006, and 
2009 school years. The national impact evaluation was conducted on 
children entering Head Start in the 2002 school year. FACES 2003 
provides the closest FACES measure of how much children gained in Head 
Start at the time of the national impact study. Subsequent FACES 
surveys allow us to see how children's learning gains changed after the 
impact study. NIEER analyses of these data reveal that Head Start 
children made greater gains in language and literacy in 2006 and 2009 
than in 2003. Language and literacy gains are larger for all three 
major ethnic groups in 2009 compared to 2003, sometimes two or more 
times as large. Policy changes in Head Start are likely to be behind 
these results. Additional data from FACES indicate that both the 
frequency of intentional literacy activities and the percentage of 
teachers with a 4-year college degree had increased by 2009 (Hulsey, et 
al., 2011).
    The Strong Start for America's Children Act is designed to support 
precisely these features of effective programs. Prominent among them 
are: attention to the needs and development of the whole child, highly 
qualified teachers who are adequately compensated, reasonable class 
sizes and ratios, a sufficient amount of preschool provided, and a 
continuous improvement system. I focus on these features not because 
they are the only features of importance, but because they are the most 
salient in policy debates and have significant implications for cost. 
(For example, I do not deal with parent engagement because everyone 
agrees that preschool programs should engage with parents to support 
learning and development.) These features matter because they greatly 
facilitate the types of teacher-child interactions and other child 
experiences that most powerfully influence learning and development.
    To be perfectly clear, like the 10 benchmarks for quality standards 
which NIEER uses to compare State preschool standards, the standards 
set by the Act are minimums that set floors below which programs should 
not fall, not recommendations that optimize chances of success. For 
example, a maximum class size of 15 is likely to lead to larger gains 
for children than 20 students per class, especially in classes with 
high concentrations of children in poverty, Dual Language Learners, or 
children with special needs. Many States and localities may be expected 
to improve upon the requirements of the Act as funding permits.
    While academic abilities that directly contribute to achievement 
are important, executive functions, social and emotional development, 
habits, dispositions, and orientations toward learning, such as 
curiosity are equally important (Barnett, 2008, 2011; Diamond, et al., 
2007; Hirsh-Pasek, et al., 2008). So is the child's physical 
development. Clearly this is about more than simply raising test 
scores. The primary reason to attend to a child's nutritional needs is 
so that he or she does not go hungry and develops healthy eating habits 
from an early age, not to raise test scores. Better social skills make 
for better neighbors and a more productive workforce. Stronger 
executive functioning skills keep kids out of trouble and adults out of 
jail. Early learning standards that address all of these domains have 
been developed and adopted by virtually every State, which is a great 
accomplishment. However, not all State preschool programs adequately 
reflect their standards.
    Initial teacher qualifications provide a foundation for high 
quality teaching. In some State preschool programs, teachers are not 
even required to have completed a 2-year degree to lead a classroom. 
Based on an analysis of the knowledge and skills preschool teachers 
must have to be highly effective, and a review of the research on 
teacher effectiveness, a National Resource Council Report concluded 
that every lead teacher in every preschool classroom should have at 
least a BA degree and specialized training in early childhood education 
(Bowman, Donavan & Burns, 2000). They and others have concluded that 
this is a necessary, but not sufficient, condition for a highly 
effective preschool education system. For example, it does no good, and 
might do harm, to require all teachers to have a BA degree without 
adequate funding to pay teacher salaries consistent with that level of 
education. And, no program feature should be expected to succeed on its 
own. Not even the best teacher, when given too many children and no 
instructional support from a coach or other educational leader--can be 
expected to succeed. Unsurprisingly, meta-analyses find only very small 
average effects of a BA degree over other levels of education (which 
includes teachers working toward the BA, it should be noted). However, 
this does not negate the evidence that large effects have been produced 
only when this ingredient was in place.
    The logic of supporting small classes and reasonable ratios is 
obvious. Smaller classes and more adults per child permit more one-to-
one and small group interactions. Not only are small classes and high 
ratios of teacher-to-children common features of effective programs, 
but there is also consistent evidence from education research generally 
that smaller class size is associated with greater effectiveness 
(Swanzenbach, 2014). This includes a large randomized trial that finds 
smaller class size produced substantive gains for kindergarten children 
(Nye, et al., 2000). Most recently, a randomized trial of smaller class 
size in Chicago Public School preschools found that smaller class sizes 
led to greater learning gains even though it did not change quality as 
measured by commonly used observational measures (Francis, 2014).
    The amount of preschool education provided matters, once the 
quality of that education has been established. Although half-day 
programs have produced strong results, a randomized trial has found 
that an extended day and extended year produced greater learning gains 
(Robin, Frede, & Barnett, 2006). Preliminary results from a more recent 
randomized trial with Chicago Public Schools also indicate that a full-
day program produced larger gains than a half-day. Other studies have 
found mixed results. It is possible to use the added time poorly; and, 
when quality is low generally more of the same is unlikely to be of 
much benefit. Another consideration is that when only half-day programs 
are offered, some children may not participate at all, because such 
programs conflict with their parents' work schedules. Finally, another 
aspect of duration is the number of years of preschool. None of the 
programs for which we have evidence of large effects and solid benefit-
cost analyses were just 1 year of preschool at age 4.
    Teacher qualifications, class size, ratio, duration, and other 
structural features of programs are best thought of as resources that 
make quality possible, but do not by themselves guarantee results. For 
this reason, it is critical that preschool programs have continuous 
improvement systems (CIS) that constantly evaluate practices and 
outcomes; feed this information back to teachers and those who support 
them (supervisors and coaches); and guide practice, professional 
development, and planning. Much like a GPS, a CIS tells everyone from 
the classroom level on up where they are, where the children are, and 
how to get everyone where they should be from there. Ensuring that 
goals for learning and teaching are met requires a CIS infrastructure 
that articulates these goals, monitors progress toward the goals, 
provides supervision and coaching, and engages teachers and those who 
support them in a continuous improvement process (Frede, 1998; 
Mashburn, et al, 2008; Pianta, et al., 2009).
    The approach to quality and effectiveness outlined above and 
supported by Strong Start actually works when applied to public 
programs As the result of a State Supreme Court order in the Abbott v. 
Burke school finance case, New Jersey has implemented a version of this 
approach in a public program serving more than 40,000 3- and 4-year-
olds annually. There are clearly articulated standards for learning and 
teaching and evidenced-based curricula. Each classroom of no more than 
15 children is staffed by certified teacher and an assistant, both 
receiving strong support and supervision, and paid at public school 
scale. High standards and a continuous improvement system transformed a 
patchwork of private and public programs into a highly effective mixed-
delivery system that includes Head Start. Teachers in existing programs 
were supported to return to school to obtain the appropriate 
qualifications and then coached to success. Annual quality observations 
document this transformation. In 1999-2000, less than 15 percent of 
pre-K classrooms were rated good to excellent and nearly 1 in 4 was 
less than minimal quality. By 2007-8 the vast majority of classrooms 
were rated good to excellent. These are much the same programs (2/3 
private) children had been attending previously, with the lower 
standards and funding that typifies much of American preschool 
education.
    The consequences for children of this support for quality has been 
seen in a series of studies that found strong initial gains in 
children's learning and development, with persistent gains now 
documented through grade five (Barnett, Jung, Youn, & Frede, 2013). 
Substantive gains are found in language arts and literacy, math, and 
science on the State's standardized tests at fourth and fifth grade. 
Abbott pre-K also reduced grade repetition from 19 percent to 12 
percent and special education from 17 percent to 12 percent through 5th 
grade.
    Unfortunately, as I documented at the beginning of my testimony few 
children in the United States receive the kind of preschool programs 
that would be supported by the Strong Start Act and that is available 
in New Jersey's Abbott program. Moreover, the trend over the past 
decade has not been good. Although States have made some progress in 
raising standards, and there are exceptions among the States, in 
general, funding per child is inadequate to support high standards and 
total funding is to limited to reach even children in the bottom half 
of the income distribution, much less all children. The Great Recession 
was particularly damaging to State programs and demonstrated that 
States have difficulty maintaining quality standards during economic 
downturns, precisely when the opposite should be occurring (Barnett & 
Carolan, 2013). Clearly our Nation's children would benefit from 
financial incentives and support that would help States expand access 
to high quality preschool. As I have shown (Barnett, 2013), over time 
the long-term cost-savings to States from providing quality preschool 
to all children under 200 percent of poverty will offset the costs 
making it easier for States to sustain high quality preschool a decade 
down the line. Federal support will make it much more likely that they 
make the investments in the short-term needed to produce those long-
term cost-savings.
                               References
Barnett, W. S. (2008). Preschool education and its lasting effects: 
    Research and policy implications. Boulder and Tempe: Education and 
    Public Interest Center & Education Policy Research Unit.
Barnett, W. S. (2011). Effectiveness of early educational intervention. 
    Science, 333, 975-78.
Barnett, W. S. (2013). Why expanding access to quality pre-K is sound 
    public policy. New Brunswick, NJ: National Institute for Early 
    Education Research.
Barnett, W. S. & Carolan, M. E. (2013). Trends in State Funded 
    Preschool Programs: Survey Findings from 2001-2 to 2011-12. New 
    Brunswick, NJ: National Institute for Early Education Research.
Barnett, W. S. & Lamy, C. (2013). Achievement gaps start early: 
    Preschool can help in Carter, P. L., & Welner, K. G. (Eds.). 
    Closing the opportunity gap: what America must do to give every 
    child an even chance. Oxford: Oxford University Press.
Barnett, W. S., Carolan, M. E., Fitzgerald, J., & Squires, J. H. 
    (2012). The state of preschool 2012: State preschool yearbook. New 
    Brunswick, NJ: National Institute for Early Education Research.
Barnett, W. S., Jung, K., Youn, M., & Frede, E., (2013). Abbott 
    Preschool Program Longitudinal Effects Study: Fifth Grade Follow-
    Up. New Brunswick, NJ: National Institute for Early Education 
    Research.
Bowman, B. T., Donovan, M. S., & Burns, M. S. (Eds.). (2000). Eager to 
    learn: Educating our preschoolers. National Academies Press.
Campbell, F., Conti, G., Heckman, J. J., Moon, S. H., Pinto, R., 
    Pungello, E., & Pan, Y. (2014). Early Childhood Investments 
    Substantially Boost Adult Health. Science, 343(6178), 1478-85.
Camilli, G., Vargas, S., Ryan, S., & Barnett, W. S. (2010). Meta-
    analysis of the effects of early education interventions on 
    cognitive and social development. Teachers College Record, 112(3), 
    579-620.
Diamond, A., Barnett, W. S., Thomas, J., & Munro, S. (2007). Preschool 
    program improves cognitive control. Science, 318(5855), 1387.
Duncan, G. J., & Magnuson, K. (2013). Investing in preschool programs. 
    The Journal of Economic Perspectives, 27(2), 109-32.
Francis, J. (2014). Relating preschool class size to classroom life and 
    student achievement. Doctoral Dissertation, Loyola University of 
    Chicago and Erikson Institute.
Frede, E. C. (1998). Preschool program quality in programs for children 
    in poverty. In W. S. Barnett & S. S. Boocock (Eds.), Early care and 
    education for children in poverty (pp. 77-98). Albany, NY: SUNY 
    Press.
Haskins, R. & Barnett, W. S. (Eds.) (2010). Investing in Young 
    Children: New Directions in Federal Preschool and Early Childhood 
    Policy. Washington, DC: Brookings Institution and National 
    Institute for Early Education Policy.
Hirsh-Pasek, K., Golinkoff, R. M., Berk, L. E., & Singer, D. (2008). A 
    mandate for playful learning in preschool: Applying the scientific 
    evidence. Oxford: Oxford University Press.
Hulsey, L. K., Aikens, N., Kopack, A., West, J., Moiduddin, E., & 
    Tarullo, L. (2011). Head Start Children, Families, and Programs: 
    Present and Past Data from FACES. OPRE Report 2011-33a. Washington, 
    DC: ACF.
Mashburn, A. J., Pianta, R. C., Hamre, B. K., Downer, J. T., Barbarin, 
    O. A., Bryant, D., Burchinal, M., Early, D. M., & Howes, C. (2008). 
    Measures of classroom quality in pre-kindergarten and children's 
    development of academic, language and social skills. Child 
    Development, 79(3), 732-49.
Nores, M. & Barnett, W. S. (in press). Access to High Quality Early 
    Care and Education: Readiness and Opportunity Gaps in America. New 
    Brunswick, NJ: Center for Enhancing Early Learning Opportunities 
    (CEELO) & National Institute for Early Education Research (NIEER).
Nye, B. A., Hedges, L. V., & Konstantopoulos, S. (2000). The effects of 
    small classes on academic achievement: The results of the Tennessee 
    Class Size Experiment. American Educational Research Journal, 37, 
    123-51.
Pianta, R. C., Barnett, W. S., Burchinal, M., & Thornburg, K. (2009). 
    The effects of preschool education: What we know, how public policy 
    is or is not aligned with the evidence base, and what we need to 
    know. Psychological Science in the Public Interest, 10(2), 49-88.
Robin, K. B., Frede, E. C., & Barnett, W. S. (2006). Is more better? 
    The effects of full-day vs. half-day preschool on early school 
    achievement (NIEER Working Paper). New Brunswick, NJ: NIEER.
Schwanzenbach, D. W. (2014). Does class size matter? Boulder, CO: 
    National Education Policy Center, University of Colorado.
Yoshikawa, H., et al. (2013). Investing in our future: the evidence 
    base on preschool education. Society for Research in Children and 
    Foundation for Child Development.

    The Chairman. Thank you very much, Dr. Barnett.
    Why do we not recess now so then we can come back? We will 
have Dr. Whitehurst, and then we will open up for questions and 
discussion. We will recess for about 10 minutes or so; 10-12 
minutes. OK.
    [Recess.]
    The Chairman. All right. The committee will resume its 
sitting.
    And now we turn to Dr. Whitehurst for your testimony.
    Dr. Whitehurst, please proceed.

  STATEMENT OF GROVER J. (RUSS) WHITEHURST, Ph.D., DIRECTOR, 
   BROWN CENTER ON EDUCATION POLICY, BROOKINGS INSTITUTION, 
                         WASHINGTON, DC

    Mr. Whitehurst. Thank you very much for the opportunity to 
testify, Chairman Harkin and Ranking Member Alexander.
    I bring to my testimony 30 years of experience in my first 
career, which was as a developmental psychologist developing 
programs for preschool centers. And in that role, I spent a lot 
of time in childcare facilities that were under the sway of 
Federal legislation.
    I saw good programs. I saw bad programs. I saw parents 
well-served. I saw parents terribly served. I saw programs I 
would like to have my kids in and others that made me cry at 
the end of the day on the way home. So I care about this area 
and I am very pleased that the Senate is focused on it.
    In testimony before the House Education and Workforce 
Committee in February, and in a number of reports that I have 
released at Brookings over the past year, I have addressed 
specifics of the research literature on pre-K programs. The 
gist of my conclusions is that the research is much more mixed 
in quality and equivocal in implications for public policy than 
advocates for universal pre-K would lead you to believe.
    My approach to examining the research has been to focus on 
the studies that are central to the debate. But even a 
nonselective reading of the research raises questions about the 
degree to which transformative outcomes are predictably 
achieved by pre-K programs.
    Examination results from 84 studies of pre-K programs over 
the last 50 years finds highly variable results ranging from 
moderately negative to hugely positive with the average effect 
of recent programs being small, even before the predictable 
fadeout of effects once children enter school.
    I believe the appropriate conclusion from existing research 
is that some pre-K programs work for some children under some 
circumstances. But which programs, for whom, under what 
circumstances? I do not know and I do not think anyone else 
does on the basis of strong research.
    Most critical design decisions that face early childhood 
policymakers have no evidence associated with them. Examples 
include questions such as the value of investing in parenting 
programs as an adjunct to center-based care, whether an 
investment in a multiyear program has a higher payoff than an 
investment in a program just for 4-year-olds, and how to best 
hold providers accountable for delivering a quality service.
    Further complicating the question of what the Federal 
Government should require of States, and States should require 
program providers is the role to give to parents in deciding 
what they want for their young children.
    Wherever the dividing line should lie between the authority 
of parents versus the State in determining the content of a 
child's education. I hope you will agree with me that the line 
shifts toward parents in the period in a child's life prior to 
the beginning of formal education.
    Based on the few things we know, an appreciation of how 
much we do not know, and deference to parents in deciding what 
kind of out-of-home care they want for their young children, I 
identify five desirable elements of Federal pre-K policy.
    First, target expenditures on families with financial need. 
Second, devolve administration to States with as few strings 
attached as possible. Third, allow parents the maximum amount 
of choice of childcare provider consistent with the laws and 
regulations of the State in which they live. Fourth, invest in 
data systems and research that will inform State actions and 
make it easier for parents to shop. And finally, conceptualize 
and evaluate pre-K expenditures as family supports rather than 
construing them exclusively as about school readiness.
    Many of these elements are incorporated in this committee's 
bipartisan effort that led to the Senate's passage of the Child 
Care and Development Block Grant Act of 2014. This legislation 
provides for parental choice in early childhood services, 
allows States to administer block grant funds with substantial 
flexibility, targets expenditures on low-income families, and 
requires States to fulfill fundamental responsibilities with 
respect to the quality and continuity of services.
    Federal support for childcare for poor families, if 
designed along the lines of the CCDBG template would enable 
parents to work, live productive lives, and raise their 
children in keeping with their values. It would allow States to 
innovate and parents to take advantage of information on the 
childcare services available to them.
    This time of high interest in the expansion of Government 
support of early childhood programs is an ideal one for the 
Federal Government to rethink its investments. Do not provide 
45 different programs with many strings attached; provide one 
with maximum flexibility. Proceed with a humble appreciation of 
how much we do not know and the intent to learn as we go.
    Thank you very much for the opportunity to testify.
    [The prepared statement of Mr. Whitehurst follows:]
        Prepared Statement of Grover J. (Russ) Whitehurst, Ph.D.
                                summary
    In testimony before the House Education and Workforce Committee in 
February and in a number of reports I have released at Brookings over 
the past year I've addressed specifics of the research literature on 
pre-K programs. I've reported that research is much more mixed in 
quality and equivocal in findings than advocates of universal pre-K 
would lead you to believe. The oft trumpeted claim that we should 
expect $7 in taxpayer savings for every $1 invested in pre-K is a 
fanciful extrapolation to today's circumstances of a flawed study of a 
program that served a little more than 50 children 50 years ago in a 
small town in Michigan.
    Even a non-selective reading of the research literature raises 
questions about the degree to which transformative outcomes are 
regularly achieved by pre-K programs. An examination of results from 84 
studies of pre-K programs over the last 50 years finds highly variable 
results, ranging from moderately negative to hugely positive, with the 
average effect from recent studies being small. A reasonable conclusion 
is that some pre-K programs work for some children in some 
circumstances. But, what programs for whom under what circumstances? We 
don't know. Most critical design decisions that face early childhood 
policymakers have no evidence or even much in the way of practical 
experience associated with them. Examples include questions such as the 
value of investing in parenting, whether multi-year programs are more 
effective, and what type of curriculum is best for which children.
    Further complicating the matter is the role to give to parents in 
deciding what they want for their young children. Wherever people think 
the dividing line should lie between the authority of parents vs. the 
authority of the State in determining the content of a child's 
education, nearly everyone agrees that the line shifts toward parents 
in the period in a child's life prior to the beginning of formal 
education.
    Based on what we know and a humble appreciation on how much we 
don't know, desirable elements of Federal pre-K policy include: (a) 
targeting expenditures on families with financial need, (b) devolving 
administration to the States, (c) allowing parents the maximum amount 
of choice consistent with the laws and regulations of the State in 
which they live, and (d) investing in data systems and research that 
will inform State actions and parental choice.
    Much of what I see as desirable elements of Federal policy on early 
childcare and services has been incorporated in this committee's 
bipartisan effort that led to the Senate's passage of the Child Care 
and Development Block Grant Act of 2014 (S. 1086). This legislation 
provides for parental choice in early childhood services, allows States 
to administer block grant funds with substantial flexibility, targets 
expenditures on low-income families, and requires States to fulfill 
fundamental responsibilities with respect to the quality and continuity 
of services.
    Federal support for childcare for poor families, if designed along 
the lines of the template in the CCDBG reauthorization, would enable 
parents to work, live productive lives, and raise their children in 
keeping with their values. It would allow States to innovate and 
parents to take advantage of information on the child care services 
available to them. This time of high interest in the expansion of 
government support of early childhood programs is an ideal one for the 
Federal Government to rethink its investments. Don't provide 45 
different programs with many strings attached. Provide one.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander, and members of the 
committee, my name is Russ Whitehurst. I am director of the Brown 
Center on Education Policy at the Brookings Institution, where I am a 
senior fellow and hold the Herman and George R. Brown Chair in 
Education Studies. Thank you for inviting me to offer testimony.
    I bring to my testimony 30 years of experience in my first career 
as a developmental psychologist conducting research on programs to 
enhance the language and cognitive development of young children. In 
that role I spent a lot of time in childcare facilities that were under 
the sway of Federal legislation, including Head Start, Even Start, and 
subsidized daycare centers. My testimony is also informed by my career 
since that time, first as the founding director of the Institute of 
Education Sciences within the U.S. Department of Education, and 
subsequently as an education policy expert at Brookings.
    In testimony before the House Education and Workforce Committee in 
February and in a number of reports I have released at Brookings over 
the past year I've addressed specifics of the research literature on 
pre-K programs, doing my best to objectively characterize the quality 
of studies that have received public attention and trying to make sense 
of what the findings mean for public policy. I'm not going to repeat 
myself on those issues today, unless something comes up in questioning. 
I'll simply say that the research is much more mixed in quality and 
equivocal in findings than advocates of universal pre-K would lead you 
to believe. The oft trumpeted claim that we should expect $7 in 
taxpayer savings for every $1 invested in pre-K is a fanciful 
extrapolation to today's circumstances of a flawed study of a program 
that served a little more than 50 children 50 years ago in a small town 
in Michigan. It is as if someone did a study in the 1960s showing that 
a new Federal post office built in a small town somewhere increased 
business activity in that town, and on that basis argue that building 
new post offices across the Nation today will spur the economy.
    Today I will focus not on specific research studies but on how 
preschool services ought to be supported by the Federal Government. The 
takeaway from my testimony is that we know very little from research, 
or even from practical experience, that can inform the dozens of 
important decisions that should be on the table for government 
officials responsible for the design and implementation of early 
childhood programs and services. In that light, as well as in deference 
to parental prerogatives, Federal policymakers should design systems 
that afford variety in the nature of the preschool programs that are 
offered to parents and that can adapt with experience.
    The Federal Government presently spends over $22 billion a year on 
programs to support early learning and childcare through 45 different 
programs and 5 tax provisions. To this the Obama administrative has 
proposed adding another $15 billion a year in Federal spending and 
State matching funds in order to create universal free pre-K for 4-
year-olds. Parents spend heavily as well for unsubsidized out-of-home 
care for their young children.
    Most of the present and newly proposed taxpayer expenditure is 
based on the assumption that children will learn transformative skills 
from early center-based care that will eliminate gaps in school 
readiness between more and less advantaged children, enable all 
children to get more out of every additional investment in their 
education, and generate socio-emotional dispositions that pay dividends 
in later life, for example, by reducing criminality or enhancing 
performance in the workplace.
    But even a non-selective reading of the pre-K research literature 
research raises questions about the degree to which such transformative 
outcomes are regularly achieved. The following figure is based on data 
provided in the appendix to a 2013 article by Duncan and Magnuson 
(Investing in Preschool Programs, Journal of Economic Perspectives, 27, 
2, 109-32). The authors review 84 studies on the impact of early 
childhood programs published between 1960 and 2007, including all the 
studies they could find that had a measure of children's cognition or 
achievement collected close to the end of the program treatment period, 
and, at the least, had a comparison group demographically similar to 
the treatment group.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Each data point in the scatter plot represents the mean achievement 
test outcome at the end of the program period for a single pre-K 
program. The program year is plotted on the horizontal axis, with new 
programs toward the right. The vertical axis represents the size of the 
measured effect, i.e., the difference between the program group 
outcomes and the control group outcomes, calculated as an effect size. 
An effect size of zero means that there is no difference between the 
treatment and control group. Negative numbers favor the control group 
whereas positive numbers favor the pre-K treatment group. A rule-of-
thumb for judging effect sizes is that an effect size of 0.20 to 0.30 
might be considered ``small'', around 0.50 ``medium'', and 0.80 to 
infinity ``large''. The solid line represents the best linear fit to 
the data points.
    Keeping in mind that the program effects represented in the figure 
do not include followup data from elementary school, where all 
longitudinal research indicates fade-out, and that the studies are 
overwhelmingly of programs serving disadvantaged children, for whom 
impacts are largest, two conclusions seem undeniable: The first is that 
the effects produced by pre-K programs as found in the 84 studies 
represented in the figure are highly variable, ranging from moderately 
negative to hugely positive. This means that any single preschool 
program is not a sure bet to produce positive effects even at the end 
of the pre-K year. The second conclusion is that older programs 
produced much larger effects than more recent programs--the trend line 
begins at 0.50, a medium effect, and ends at 0.14, a small effect.
    The diminishing effect size across years is probably best 
understood as resulting from changes in the home environments of 
children from low-income families. For example, the percentage of 
children from families in the bottom quintile of income who have 
mothers who finish high school roughly doubled in the timeframe covered 
in the figure while the percentage with postsecondary education 
quintupled. To the extent that preschool programs are intended, in 
part, to compensate for deficiencies in parent-child interactions in 
the home that are associated with parental education, improvements in 
parental education mean that the control group of children in a present 
day study of a preschool intervention is likely to perform much better 
than untreated children from 40 years ago. Thus the difference in 
outcomes between the two groups in the present day study, the effect 
size, is smaller.
    Is it reasonable to conclude from the data in the figure as well as 
the more detailed examination that I have given to high profile studies 
with more rigorous methods that the return on investment from any 
particular early childhood program is likely to be high, e.g., 7 to 1? 
I believe it would be unreasonable to draw such a conclusion--again the 
effects are all over the place, with many at zero or below. Is it 
reasonable to conclude from this and other research that some early 
childhood programs can produce worthwhile benefits for some 
participants? I believe it is quite reasonable to draw that 
conclusion--many of the effects are positive.
    To sum up, we know that some pre-K programs work for some children 
in some circumstances. But, what programs for whom under what 
circumstances? That's where the empirical sledding gets rough.
    Consider the following program design decisions that are available 
to policymakers with regard to early childhood programs:

    <bullet> targeted vs. universal;
    <bullet> multiyear vs. single year;
    <bullet> significant parent component or not;
    <bullet> year-round or school-year calendar;
    <bullet> full- or part-day;
    <bullet> wrap around or school-like hours;
    <bullet> teacher certification or not;
    <bullet> provider licensure requirement or not;
    <bullet> teacher college degree or not;
    <bullet> school districts as providers or any sponsor meeting 
requirements;
    <bullet> parental choice or zip code assignment;
    <bullet> market-based or regulatory accountability;
    <bullet> assessment of children to monitor program quality and 
provide consumer information or not;
    <bullet> align pre-K curriculum with Common Core, or focus on 
social/emotional development, or let a thousand flowers bloom;
    <bullet> sliding scale fee structure or strict income eligibility 
for a free service;
    <bullet> financial incentives and career ladders to highly 
effective early childhood teachers or not;
    <bullet> family day care included or only center-based programs;
    <bullet> spending levels per student per program type;
    <bullet> single State system with coordinated Federal and State 
funding streams or separate systems serving different populations with 
different needs;
    <bullet> early childhood programs as a seamless part of the 
education system or serving broader and different goals and needs;
    <bullet> enable non-traditional early childhood teachers, including 
Teach for America-type recent college graduates and educated retirees, 
or focus on upgrading the traditional early childhood workforce;
    <bullet> financial support and training to qualifying parents to 
care for their children at home or focus on out-of-home care;
    <bullet> provide digital materials intended to strengthen the role 
of parents as their children's first teachers or not;
    <bullet> identify and disseminate evidence-based curriculum 
materials and professional development activities or leave this 
responsibility to others; and
    <bullet> expand State k-12 student-level database to include 
children receiving early childhood services or not.

    Only a couple of these design choices (targeted vs. universal and 
requirements for teacher credentials) are informed by decent research 
evidence. For all the rest, there is almost no relevant evidence, much 
less anything from credible research. Further, the list of important 
public policy design questions could be much longer, and most items in 
the present list subsume a set of subordinate questions for which there 
is also little or no evidence. For example, the decision to provide 
accountability through regulatory oversight of the performance of 
individual early childhood centers generates dozens of unanswered 
questions about how to do so.
    In short, we know very little about nearly all of the decisions 
that policymakers with a relative clean slate of early childhood 
options ought to have on the table--and for many States it is a nearly 
clean slate.
    Further complicating the matter is the role to give to parents in 
deciding what they want for their young children. Wherever people think 
the dividing line should lie between the authority of parents vs. the 
authority of the State in determining the content of a child's 
education, nearly everyone agrees that the line shifts toward parents 
in the period in a child's life prior to the beginning of formal 
education. Some parents will be as intent on homeschooling their 
preschoolers as they are their school-aged children. Some will want 
center-based care for their young children that has an explicit moral 
or religious grounding whereas others will take exception to that. Some 
will want a curriculum that has a pre-academic emphasis, e.g., building 
math skills, whereas others will want a play-focused program, and still 
others will want a program that develops social relationships. Some 
will want a part-day program whereas others will want or need full-day. 
Some will prefer a family setting for out-of-home care whereas others 
will want their child in a classroom at a center. Some will want or 
need out-of-home care for their toddler whereas others will not want 
their child to be in a center until he or she is at least 4 years of 
age. Some will want their children to experience a diverse set of 
classmates whereas others will want their children to be with children 
with similar backgrounds.
               desirable elements of federal pre-k policy
1. Target families with financial need
    There is no compelling reason that flows from the long-term well-
being of children for the Federal Government to expend resources on 
universal pre-K programs. Existing research demonstrates that higher 
income parents receive a disproportionate financial benefit from 
universal programs because they shift their preschoolers from care they 
would have paid for themselves to care that is paid for by the 
taxpayer. At the same time, children of higher income, educated parents 
benefit far less from pre-school, if they benefit at all, than children 
from disadvantaged programs. If the goal of Federal or State programs 
is to create access, increase participation, and decrease gaps in 
school readiness, covering the childcare expenses of families that can 
afford to cover their own costs is counter-productive. Federal 
expenditures should be targeted on families that cannot otherwise 
afford childcare.
2. Devolve administration to the States
    States have critical roles to play in administering Federal funds 
for early childhood services in: (a) establishing licensing and 
oversight processes that rid the childcare market of service providers 
that do harm or commit fraud, (b) collecting information on the quality 
and effectiveness of center-based childcare providers and assuring that 
parents avail themselves of it, and (c) designing a system of early 
childhood services that reflects the preferences of the citizens of the 
State. The Federal Government currently operates 45 programs that 
support early child care and related services to children from birth 
through age 5, as well as five tax provisions that subsidize private 
expenditures in this area. Each program has its own requirements and 
each represents a challenge to individual States that are trying to 
design and implement programs. It would be far better, in my view, for 
the Federal Government to provide funding to States to support early 
child care on a formula basis, requiring that States use the money to 
assure access for lower income families and to carry out the three 
critical roles described above.
3. Allow parents the maximum amount of choice consistent with the laws 
        and regulations of the State in which they live
    Whatever the reasons for the prevalent practice of assigning 
school-aged children to the public school closest to their place of 
residence, our lack of knowledge of what works best for whom under what 
circumstances in preschool as well as the deference we should afford 
parents in how they want to rear and educate their young children argue 
for giving States the maximum leeway to support parent choice in early 
childcare. Some States will fully embrace choice by providing families 
a means-tested voucher to be used as they see fit to obtain early 
childhood services from any provider the State licenses. Others will 
want a system that is more constrained for parents, e.g., by funneling 
funds through school districts. That is the nature of our Federal 
system. The variety in the types of services that will emerge between 
and within States if the Federal Government allows States maximum 
flexibility in their use of Federal funds for early childcare is 
desirable both in terms of our knowledge of what works as well as our 
ability to learn as we go.
4. Invest in the data systems and research that will inform State 
        actions and parental choice
    Anyone who tries to map the landscape of early childhood services 
in the United States quickly understands how little reliable data exist 
on who is served, by whom, with what forms of funding. Other than a 
couple of Federal longitudinal studies and questions that the Census 
Bureau asks as part of the Current Population Survey, even simple 
descriptive information is absent or questionable. This affects both 
policymakers and parents. The Federal Government should require States 
receiving Federal funds for early childcare and related services to 
extend their statewide longitudinal data bases to include preschoolers. 
Without being able to follow children as they move through the system, 
everyone interested in improving quality and access is flying blind, 
including parents who need to make informed choices with respect to 
their own children.
    The Federal Government should expand its investment in the science 
of early childhood education. And when knowledge is produced from that 
investment that should find its way into practice, the Federal 
Government should provide incentives for uptake by the States. As an 
example, federally sponsored research has demonstrated that teacher 
credentials bear scant if any relationship to teacher effectiveness, 
and that the teacher to which a child is assigned is far more important 
than the aggregate quality of the school the child attends. In light of 
this knowledge, the Federal Government could provide competitive grants 
for States to measure on-the-job performance by teachers and caregivers 
in early childhood settings, and to use that information to establish 
policies that encourage good teachers to stay in the classroom.
                             a way forward
    Much of what I see as desirable elements of Federal policy on early 
childcare and services has been incorporated in this committee's 
bipartisan effort that led to the Senate's passage by a vote of 96-2 of 
the Child Care and Development Block Grant Act of 2014 (S. 1086). This 
legislation provides for parental choice in early childhood services, 
allows States to administer block grant funds with substantial 
flexibility, targets expenditures on low-income families, and requires 
States to fulfill fundamental responsibilities with respect to the 
quality and continuity of services.
    Federal support for childcare for poor families, if designed along 
the lines of the template in the CCDBG reauthorization, would enable 
parents to work, live productive lives, and raise their children in 
keeping with their values. It would allow States to innovate and 
parents to take advantage of information on the child care services 
available to them. This time of high interest in the expansion of 
government support of early childhood programs is an ideal one for the 
Federal Government to rethink its investments. Don't provide 45 
different programs with many strings attached. Provide one. Design it 
so that it places key responsibilities with States and parents and has 
a structure that generates continuous feedback and opportunities for 
improvement. We need systems and services that help children learn and 
that, likewise, can adapt to experience. We don't know what works best, 
but that doesn't mean we shouldn't act.
    Early childhood is a period of life for which evolutionary 
processes have endowed the human species with an absolute need for 
extended social dependency and opportunities to learn from caretakers, 
and that brain science indicates is our most active period of 
neurological development. The very factors that make early childhood a 
critical period for children also make it a challenging one for 
parents, particular for those who do not have the financial means to 
purchase help when they need out-of-home care for their children. I 
strongly support taxpayer expenditure on these young children and their 
families. But a shared commitment to public investment in lower income 
families with young children doesn't mean we know which programs that 
are intended to help will do so at all, much less in the most 
productive way. We should not be hobbled by consensus views that arise 
largely in an evidence-free zone grounded on little more than high 
hopes. We need to acknowledge how much we don't know and proceed in a 
humble spirit of discovery. If we are prepared to learn and adapt as we 
go, the prospects are exciting.

    The Chairman. Thank you very much, Dr. Whitehurst. Thank 
you all for being here. We will begin a series of 5-minute 
questions.
    First I will start with just Mr. Pepper. I do not know if 
you are familiar with this. I always like to bring this up 
every time we start talking about early childhood.
    Here is something called ``The Unfinished Agenda: A New 
Vision for Childhood Development and Education.'' It was put 
out by the Committee for Economic Development. It came out in 
1991, and it was a group of business leaders in America who had 
been pulled together in the 1980s to make recommendations for 
what we needed to do in education. Not early, just education.
    They met for several years. It was under the leadership of 
James Renier, the chairman and CEO of Honeywell. And if you 
look at all the lists, it is all--I did not see if Procter & 
Gamble is on here, but a lot of the big CEO's, like you, from 
around the country--about what we need to do in education.
    I remember being delivered this book in 1991 in my capacity 
then as the chair of the appropriations subcommittee. And so, 
here is all these big business leaders meeting for a number of 
years to see what we needed to do in education in America for 
economic growth and development. Guess what they said? Put it 
in early education. 1991. I have been waving this book for 23 
years now.
    Then in 2010, 20 years later, I was invited down to the 
U.S. Chamber of Commerce, just downtown here, for their rollout 
of their prescription for what we needed to do at education, 
``Why Business Should Support Early Childhood Education;'' 20 
years apart. The business community gets it.
    Here we have been told by the business community all along, 
you have got to put more in early childhood education. And 
somehow, I made sort of the comment a couple of times, it seems 
to me that here we have been given all this information over 
all this period of time, and maybe it is not the kids who are 
not learning much in America. Maybe it is the adults who are 
not learning very much in America in terms of what we need to 
do.
    I thank you, Mr. Pepper, for your advocacy, your leadership 
in this area, and the Chamber of Commerce, and others, who have 
been supporting this.
    But why do you think, I would just ask you why is it, after 
all of this period of time, we just cannot seem to invest the 
money we need to in early childhood education?
    Mr. Pepper. Let me address that. I have had many young 
people who have come into this much later than I did, ask that 
very question. Why has it taken so long? Why is it?
    And, of course, I am reminded that my first involvement 
came with Governor Voinovich when he was Governor of Ohio, and 
I was on his education committee back in the mid-1980s, and he 
had no stronger mandate, I do not think. He certainly was 
conscious of the budget as well. You know him. But he wanted 
Head Start. He wanted higher enrollment of the kids in Ohio in 
Head Start than any other State and he had it at a point in 
time, and he was really proud of it.
    But why has it taken so long? I think there are several 
reasons. One is the voice of the people most affected is 
sometimes hard to hear. These kids do not have that strong 
voice and many of the parents who are most involved do not have 
that strong a voice, and they are probably not the biggest 
lobbying group.
    Second, there has been the factor that many of the benefits 
have been said to take a long time to come, and it is out in 
the future, and there are all these other issues we need to 
deal with.
    One thing that has really changed in my mind in the last 10 
years is the degree to which we have been able to connect what 
happens in that 5 years to what happens ever after. And not 
just because of cognitive skills, but because of what are now 
called social-emotional. Now, they are even calling it, it 
sounds like a business, executive skills.
    And when I ask my two daughters-in-law recently, what was 
the most important element of preschool, which they started at 
age 2, 3, and 4 and why should they have that and not mothers 
in Over-the-Rhine in Cincinnati? They actually did not start 
with learning letters. They started with the behavior and being 
able to share.
    I think one thing that has happened today that is positive 
is we have the connectivity and we have Return on Investment. 
And if I headed this panel, five other business people who are 
involved in this, you would have probably more Republicans than 
Democrats. And they would be talking to you about ROI's, and 
they would say, ``Even if you do not buy this because of the 
social and moral issue, you buy it because of the economics.'' 
And you have driven businessmen on this today, and they believe 
it, and I believe it. So that is a change.
    I am much more hopeful than I have been before. We will do 
this because if we do not do it soon, it will become so ugly in 
this country, as we see our failure. We still have a 20 percent 
dropout rate.
    I was before the Chamber of Commerce in Cincinnati in 1987 
saying how terrible it was, we had a 25 percent dropout rate. 
That was before China was at play, Eastern and Central Europe 
was not nearly as competitive, and we still have a 20 percent 
dropout rate.
    Seventy percent of people who are incarcerated are 
dropouts. If you are not reading by the end of the third grade, 
and you are poor, you are 11 times more likely to dropout. That 
is not an anecdotal number; that is a fact. And if you dropout 
of high school, you are dead in terms, you are not really, you 
can recover from that, but you are in real trouble. And we know 
what happens--0 to 5 has everything to do with whether you are 
reading on grade.
    We cannot keep resisting these facts. How we get to this 
full coverage, I do not know but the amount of money, whatever 
it is right now is doing about a quarter of the job of a job we 
need to do 90 percent, and we have got to fix that.
    We are working on it in Cincinnati. We are not going to 
wait for the Federal Government, but we cannot do it all 
anymore than Providence can.
    I just hope and pray we will do that bipartisan thing. Get 
a bill the Republicans can rally behind. If it is not exactly 
this, what is it, and let us make it happen. Please.
    The Chairman. All right. Thank you, Mr. Pepper. I have more 
questions, but I will have to do it on the second round.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Dr. Whitehurst, based on your count and the General 
Accountability Office's study, if we pass Senator Harkin's 
proposal, it would be the 46th early childhood Federal program 
involved in early childhood education. Is that correct?
    Mr. Whitehurst. That is correct. Yes.
    Senator Alexander. Based upon your research, those 45 
existing programs spend about $22 billion this year. Is that 
correct?
    Mr. Whitehurst. In 2011, yes.
    Senator Alexander. In 2011, $22 billion. I believe I am 
correct that there are about 4 million 4-year-olds in America. 
Do you know? Is that about right?
    Mr. Whitehurst. I think that is about right. Yes.
    Senator Alexander. And that would be about $5,000 for every 
4-year-old in America. Is my math about right?
    Mr. Whitehurst. I am not really good at mental math when I 
am before a Senate committee.
    Senator Alexander. About $5,000 for every 4-year-old in 
America and $22 million, I know, is about equal to the total 
amount of money that the Federal Government spends through the 
Elementary and Secondary Education Act for K through 12. I 
mean, it is a lot of money; $5,000 for every 4-year-old in 
America or $7,000 or $8,000 for every--or half that to $2,500 
or so, for every 3- or 4-year-old in America.
    So here is my question, Dr. Whitehurst, if that is the 
case, would it be a wise first step to say let us take this $22 
billion and at least give some States the opportunity to say, 
``I would like to have my share of it.'' In Ohio, that would be 
$800 million; in Tennessee it would be $450 million. And then 
give parents, let the States fashion programs that would meet 
the needs of children zero through five, and use that $22 
billion as a way to start dealing with the goal that we all 
share. Since the State superintendent of Louisiana testified 
before this committee that the single biggest obstacle to his 
achieving the goal we all share is the confusion and 
fragmentation of the 45 existing Federal programs that spend 
$22 billion.
    Mr. Whitehurst. Yes. I mean, I strongly agree with the 
position that is implicit in your question. I do not know what 
the appropriate level of Federal appropriation is. It probably 
needs to be more than $22 billion at some point.
    But I do think the appropriate place to start is with the 
money that is being spent, and see if that cannot be spent in 
ways that permits more innovation, that lets States deal better 
with what now is fragmentation that is largely a product of the 
Federal system rather than something that the States themselves 
are responsible for.
    Senator Alexander. Yes.
    Mr. Whitehurst. So I would fix what we are doing already 
before moving ahead with something else. I am very worried here 
about one-size-fits-all solutions. I think we have got 50 
States, they have different citizens with different sense of 
what they need, and it would be great to proceed in that 
direction.
    Senator Alexander. My time is short. But just to be clear, 
the number of programs that I mentioned, 45, comes from your 
count of the General Accountability Office study; is that 
correct?
    Mr. Whitehurst. It is the GAO conclusion----
    Senator Alexander. It is the GAO conclusion.
    Mr. Whitehurst. Not mine.
    Senator Alexander. The $22 billion is whose conclusion?
    Mr. Whitehurst. Actually, Steve Barnett has a lot to do 
with that conclusion. I have drawn that from his publication.
    Senator Alexander. Let me ask Mr. Pepper. Mr. Pepper, I 
know your passion for this. I can see it today. We have talked 
about it before in my office and on the telephone, and you are 
one of the most celebrated chief executives in the country.
    Now, if you are at Procter & Gamble, one of the best 
managed companies in the country, and you had your product 
about which you were the most passionate, and your vice 
president came in and said, ``Mr. Pepper, we have got 45 
divisions already making Pringles,'' or whatever the product 
was. ``I propose we have a 46th proposal, and we are spending 
$22 billion already.''
    Would not your first instinct be to say, ``Let us 
consolidate all of that and let us make sure that is 
effective?''
    And would we not be better off taking all the Federal 
dollars that we spend and give Ohio its $800 million and let 
you and Cincinnati use that in the most effective way with your 
State dollars, and your local dollars, and your private dollars 
to meet the needs of children? We could give you enough money 
so you would have $5,000 for every 4-year-old in Ohio if we did 
that.
    Mr. Pepper. Let me respond first. Obviously, if I was 
confronted with 45 different streams that were going, I would 
want to see if they could be improved.
    Second, your math that you're throwing out here which, of 
course, I do not know all of it, take it at face value, $22 
billion, is $2,500 per 3- and 4-year-old. We have strong 
evidence that three and four together is almost two times 
better than four, is $2,500. The cost is about $8,000 or 
$9,000. So it would leave me in Ohio about one-third of where I 
needed to be, i.e., about where I am now, that is in trouble.
    So the math that you have gone through here, Senator, as I 
calculate it on 3- and 4-year-olds gets me to a point where I 
am worried about; i.e., $2,500 which does not cover preschool.
    Senator Alexander. So you want $100 billion new Federal 
dollars.
    Mr. Pepper. No.
    Senator Alexander. That is all my time.
    Mr. Pepper. I do not.
    Senator Alexander. Twenty-two dollars----
    Mr. Pepper. I do not think an investment beyond what is 
being talked about here, leveraged with the States is anything 
beyond what I would do, but you know more about this than I do, 
respectfully, you do. But I certainly would not go right to 
$100 billion. I do not think that is what it will take.
    I think, at least as I read this legislation, come with the 
States, it would allow us to provide preschool to all 4-year-
olds and I think that is a very good starting point, quality 
preschool.
    I think at least from the numbers I have seen, and you know 
them and Senator Harkin does, that that amount of money that is 
in this bill would allow us to get quality preschool to all 4-
year-olds.
    Senator Alexander. My time is up and so I will stop; 
Senator Harkin respected his. But the amount of money we are 
already spending would allow you to spend $5,000 on every 4-
year-old in Ohio.
    Mr. Pepper. But again, sir, that is only about half, about 
70 percent of what it costs. So it does not do the job. More 
money is needed. But saying that, if there is a way to get more 
out of every dollar we are spending now, I would go after that 
feverishly.
    I just heard in the back of the room during the break that 
a great deal of the problem come because there are so many Head 
Start regulations. Somebody said 140 and that kind of thing 
from business and probably to you, boggles my mind and I would 
want to get in and see how can I simplify it dramatically. 
Someone said, I think it was 1,400. Go to 140, I would say go 
to 14.
    The Chairman. Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Senator Harkin, for your 
leadership on this, your Strong Start for America's Children 
Act would serve an additional 1,456 children in Minnesota.
    This is for anyone. What percentage of kids who are 
eligible for Head Start are served currently?
    Mr. Tavares. Senator Franken, in Rhode Island, it is about 
one-third, I believe, of the kids who are eligible for Head 
Start are served by Head Start.
    Senator Franken. And when we had the sequester, we lost 
funding for that, and we had to actually close the slots; 
right?
    Mr. Tavares. We did lose funding. I do not have the exact 
number of slots, but I do know that that was one of the 
casualties.
    Senator Franken. I think there is a case here to be made 
for additional funding, part of which is to make sure that our 
workforce--when Dr. Whitehurst talks about the effectiveness of 
these Head Start programs, and I heard your range was from 
mildly negative to very successful. I would like to do the very 
successful. I think what the difference is, is in workforce. 
And so, I want to train the workforce.
    Dr. Barnett, can you discuss the ways in which improved 
teacher qualifications are connected to improving student 
learning in the early stages of brain development?
    Mr. Barnett. I would be delighted to and also would like an 
opportunity to address that $22 billion number, since it is 
mine at some point.
    Senator Franken. Go right ahead.
    Mr. Barnett. Teaching young children, a classroom of young 
children, is complicated. And the bang for the buck, whether we 
get those wildly successful results that you want, that really 
comes down largely to teacher-child interaction. One-on-one in 
small groups, and to some extent, enabling children to have 
better interactions with each other, and with things in their 
environment; but those are just kind of variations on the first 
theme.
    We have teachers today in Head Start, teachers are so 
poorly paid, a quarter to one-third of them score clinically 
depressed. We know that is not a good condition for an adult to 
be in to interact with kids. We do not want to replicate this 
elsewhere, and we want to solve this problem in Head Start. But 
teachers do need specialized--they need to be well prepared. 
The quality, the extensiveness, the unfamiliarity of the 
language that children experience in the classroom is one of 
the biggest determinants of how much it boosts their 
vocabulary, which is then going to predict their reading 
comprehension in high school.
    So if you put teachers in the classroom who have low 
vocabularies, who have negative interactions with kids, you are 
going to replicate that in kids. That is not going to give us 
the positive results and is, so often, why we fail.
    This is not a mystery why some programs do not work. We 
know why they do not work. We keep doing things, beginning with 
not investing in initial qualifications and then not investing 
in the kind of ongoing professional development and coaching 
that people need to improve that would give us better results.
    Senator Franken. That is why I want to tout my own Early 
Childhood Care and Education Workforce Improvement Act as part 
of the solution here.
    Mayor Tavares, in your testimony, you touch on your efforts 
to empower parents and caretakers to improve their children's 
development. Can you elaborate on the methods that you are 
using to encourage parents to become more involved? And I 
really do believe that parents are the first teachers, and I 
have seen this.
    We have the Northside Achievement Zone in Minneapolis, 
which is modeled after Geoffrey Canada's achievement zone. And 
I have seen a baby academy there and, my goodness, it was very 
moving to see these parents learning how to be parents.
    Mr. Tavares. Thank you, Senator.
    Let me just say with respect to Providence Talks, first of 
all, it is a totally voluntary program. So parents have to 
choose to get involved and we have it as a voluntary program. 
We have a home visitation component and we have not reinvented 
the wheel. We actually are working with Early Head Start and 
other home visitation programs. And so, we are just a component 
of that in order to be more efficient.
    What I have found is that parents, and we have had, 
actually, some press coverage on this is they have focused on 
parents who are willing to speak to the press about it. They 
are very engaged, and once they realize the impact that they 
can have by simply talking to your child and being engaged, 
engaging your child in all of the positive activities, they are 
very, very engaged.
    And we have seen data that has shown that when we began, 
there was one family, and this was public; she consented to 
making this public. But they were speaking maybe 11,000 words 
and by subsequent visits, they were up to almost 30,000 in a 
day. And she was ecstatic with that.
    One of the things that we are seeing as well is that one of 
the best things that we can have is word of mouth. So there are 
other parents who are interested in coming forward and they all 
want what is best for our kids. So that is something that is 
important.
    If I could add one thing, Senator, we talk a lot about 
workforce preparation, but I would say to you that this is not 
just about the workforce. It is about the future leaders of 
tomorrow, and that is what we are really talking about here is 
making sure that we are in a position to develop our young 
children into the best leaders that they can be.
    Senator Franken. Mr. Chairman, I am out of my time. I have 
to leave. May I just end with a, if you will indulge me, with 
just a couple of thoughts?
    The return on investment has been demonstrated. Sir, you 
were talking about that.
    I am sorry I was not here. I was in an energy committee 
meeting. I know, Dr. Barnett, you talked about fadeout and how 
that is kind of a myth, and I remember the Perry study. And I 
remember they found the I.Q. went up, and then there was a 
fadeout supposedly after third grade, but then they discovered 
all these other things.
    Dr. Whitehurst referred to the fadeout as if it were a real 
thing, as if there was not a carryover past the third grade in 
terms of graduating from high school, in terms of health 
outcomes, in terms of not being left back, in terms of 
adolescent girls not getting pregnant, in terms of 
incarceration.
    Yes, the return on investment is great. And yes, I think we 
need more flexibility for States. But we need to do this, not 
just because the return on invest is great, and we need to do 
it because of that. But we need to do that because you are only 
3 years old once. You are only 4 years old once. These are our 
children. These are beautiful children and that is why we need 
to do it.
    The Chairman. Thank you, Senator. We will start a second 
round here.
    We have 45 Federal programs. This is the chart that came 
out of the House Education Workforce Committee. It makes it 
look like it is just a spaghetti factory, and we have all those 
things here. And then we put $22 billion into elementary and 
secondary education, and we put in the same for early childhood 
because of these 45 programs.
    I looked at this. Here is one program that says, 
``Workforce Investment Act dislocated worker formula grant.'' 
What has that got to do with early childhood? Well, because 
some of the funding in this program can be used to train 
childcare workers. That does not go to direct services that 
support the early education of young children.
    So let us get it straight. All of these programs here are 
bits and pieces of things that can be used. Actually, there are 
only 12 Federal programs that are distinctly for early 
education and care, 12. The rest address very specific things 
such as Native Hawaiian Education. There is also the school 
breakfast program; which supports nutrition.
    Forget about the 45 programs. That is just not so. That is 
just bits and pieces of things that a little bit of money goes 
out for specific purposes, like I said, to train childcare 
workers. Is that really early education? Not at all. So the 
whole ``45 programs'' thing is kind of nonsensical.
    Also, we hear about the $22 billion. I would point out that 
the $22 billion Federal money that goes to elementary and 
secondary education is 8 percent of what we spend on elementary 
and secondary education; 8 percent from the Federal Government.
    However, the $22 billion that goes to everything in those 
45 programs, and not just early education, that is over 50 
percent of the funding for all early childhood education 
programs; the Federal Government contributes over 50 percent to 
the total amount we spend as a nation.
    You look at these dollars spent on programs like the early 
intervention for children with disabilities, tax credits for 
families, food programs, the milk program for children, school 
breakfast program. These funds are not all just going to 
preschool. There are a lot of different programs in there.
    Thirty-three of the 45 programs from the GAO report do not 
provide direct early learning service, they just have early 
learning as an allowable use of funds. The GAO does not know 
how many children are served and what the extent of those 
services are. The other 12 that I talked about have different 
purposes and they are not reaching all eligible children.
    For instance, you talked about, Dr. Whitehurst, the Child 
Care and Development Block Grant. How many people know that 
goes from 0 to 13?
    Mr. Whitehurst. I do.
    The Chairman. You do. Well, you throw it out there like 
Child Care and Development Block Grant is just for little tots. 
But, 50 percent of the money goes post-5 years of age; 50 
percent. That is not early childhood. Some of it does go to 
early childhood, but 50 percent of the money goes post-5 year. 
You know that.
    If you start looking at this, you will see there is an 
unmet need. And then Head Start, that serves 3- and 4-year-
olds, most of them are families below 100 percent of poverty. 
Is that our limit? Is that what we want to limit it to? Just 
people that are really, really desperately poor, or do we want 
to go up to 200 percent of poverty and include the near-poor 
and those that really cannot afford to have any kind of early 
learning programs for their kids?
    Now, to the extent that we need better coordination, I am 
all for it. To the extent that we can consolidate programs, I 
am all for it. I said to Senator Alexander when I came back 
from Iowa from my hearing out there on early childhood I said, 
``My head is spinning,'' because what I heard was all the 
different funding streams that come in to support these kids 
that are going to school for 3 hours a day. I said, ``I cannot 
get a handle on it.''
    Better coordination? Yes. And what this bill does, by the 
way, and I want to make this very clear, what the Strong Start 
bill does is voluntary; it is not a Federal mandate. It is 
voluntary. And what it does, it says to the States, ``You do 
your thing.'' You know, ``You do it.'' If you want a match from 
the Federal Government what we have said is, ``OK. Here are 
some things that we would like.'' High-quality teachers for 
example; we want those teachers to be high-quality, really 
trained to know how they can deliver age-appropriate learning 
to these children.
    Other things that we want: appropriate health services and 
referrals. Sure, we want that too. ``Yes, do that, then we will 
match it. We will match the money.''
    But we have left in the bill flexibility, and I would be 
glad to look at it as we mark it up and change it. If we need 
to change some things, Mr. Pepper, I am willing to make 
changes. If we can streamline it, make things more effective, 
some consolidation, I have no problem with that.
    But we have to keep in mind the funding streams. Yes, the 
States should have a lot of flexibility, but I do not think the 
taxpayers of this country paying their Federal taxes would want 
their money to go to substandard childcare programs to pay for 
teachers that are not qualified to teach the kids, to go to 
programs where they are not safe. They do not want kids to have 
to go to programs where people have to patch and fix childcare 
alongside 2 or 3 hours a day.
    Dr. Whitehurst, I agree with you that when you get down to 
that early age, you have to lean more toward the parents. I got 
that. I fully agree with that. However, it is not like it was 
when I was a kid. You got two parents working full-time, 
sometimes three jobs, and you have a lot of single parent 
families out there, and mostly women, and they are working 
hard, and they are working one-and-a-half or two jobs. They do 
not have the time. They do not have the wherewithal to deal 
with their kids like we were when we were growing up. You might 
bemoan that fact, but you cannot turn the clock back. It is not 
going to change. And so, you might want to lean that way and 
give as much discretion to parents as possible.
    But I cannot tell you how many parents I have talked to, in 
my own State and elsewhere, who want what is best for their 
kids.
    They want their kids to be safe and yes, ``Mrs. Smith down 
the block takes care of kids, and I have known her for a long 
time, and I can put my child there, and I feel good about 
that.'' But they do not know if their child is really getting a 
good education or if they are just getting babysitting services 
for their kid when they send him/her down the street? They do 
not know.
    They want safety first. They want their kids to be safe 
more than anything else. After that, they want education. They 
want their kids to be learning, but they do not know how to 
assess it because a lot of the parents, Angel, or Mayor, I 
should say, a lot of their parents are parents that did not 
have that kind of access themselves. Many of them did not even 
go to college or maybe did not even finish high school, so they 
cannot evaluate that very rapidly.
    That is why we try to set up high quality standards. We say 
to the States, ``OK. Flexibility is fine. You can do different 
things your own ways.'' We try to encourage as much of that in 
the bill as possible. I want to work with the Senator from 
Tennessee to see how we can consolidate some of these and make 
them more efficient, but keeping in mind that we just do not 
live in a cookie cutter society. You just do not stamp one 
thing and say, ``Everybody has got to fit into that mold.''
    There has got to be a lot of different programs out there 
to meet different needs and that is what some of these programs 
do. The States that are doing this right now are trying to 
establish or expand programs and meet some of their own unique 
needs. We do not have Native Hawaiian education problems in 
Iowa, but they do in Hawaii, so they should be able to use 
their program funds to support Native Hawaiian early childhood 
education. So they need some flexibility to meet their own 
needs of those States. I have gone way over.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Dr. Whitehurst, the fact remains, we asked the General 
Accountability Office to identify all the programs that 
explicitly provided money for early childhood education or some 
money that was related to it, and they came up with 45 
programs; correct?
    Mr. Whitehurst. That is correct.
    Senator Alexander. And some of them are pretty big 
programs. I mean, Head Start is $8.6 billion and the Child Care 
and Development Block Grant is $5.3 billion. And in your 
testimony you suggested--and the legislation that I am 
developing, I agree with it--that we be more like the Child 
Care and Development Block Grant. That we give plenty of 
flexibility to States to design their own programs.
    A lot of the debate in Washington is between, what I would 
say, the mandaters and the enablers, and it is not always a 
partisan divide. We have Republicans who stand up in our caucus 
sometimes and they have a really good idea, and they want to 
make everybody do it. I remind them that we are supposed to 
respect others, that we are to try to enable people to do it.
    Senator Harkin's bill requires States receiving these 
grants to ensure preschool programs meet requirements on staff 
qualifications; staff salaries; maximum class sizes and child 
instructor ratios; length of the school day; vision, dental, 
and health screenings; nutritious meals and snack options; 
physical activity programs; professional development for staff; 
health and safety standards.
    Does that sound like State flexibility to you?
    Mr. Whitehurst. No, it does not. It sounds like No Child 
Left Behind pushed down to preschool.
    Senator Alexander. Yes. It sounds to me like a national 
school board for preschool education, which is one way to do 
it, but that is the mandating way, not the enabling way.
    I was Governor for 8 years and I used to chafe most under 
people who did not think I had enough sense to figure those 
things out for myself in our local schools, and that they were 
wiser than we were in the States.
    I want to ask the mayor of Providence, that is the all-
American Senator Whitehouse. I have been to Providence. 
Actually, it is a terrific city.
    Let us say that the General Accounting Office and Dr. 
Whitehurst are approximately right about the amount of Federal 
dollars that we direct toward early childhood education, and 
that we swept through the Federal Government and said, ``Let us 
just give it to the States with the maximum amount of 
flexibility, and let them devise the best way to deal with 
things.''
    If you were the Governor of Rhode Island, would you like to 
have a check for about $75 million a year to use your own good 
judgment to decide how to make early childhood programs relate 
to one another? Or would you rather let us up here write very 
details prescriptions about how best for you to do that in 
Rhode Island?
    Mr. Tavares. Let me just, if I can. I hope to be the 
Governor of Rhode Island. So that is a very timely question.
    Senator Alexander. I had a suspicion of that. But I am 
quite serious about it because when in that position, usually 
you sit there, at least I did, and most of my colleagues, I had 
the former democratic Governor of Tennessee come up to me and 
talk to me about the Workforce Development Act and just say, 
``I threw my hands up,'' he said. ``It was too many Washington 
restrictions. They assumed I did not know anything, so I could 
not do anything with it.''
    Mr. Tavares. I would say, Senator, that obviously if you 
have a choice between $75 million with no requirements and some 
with other requirements, you want to have flexibility.
    I would also say to you that there is a danger, I think, 
having general outline of some things that you should expect, 
including qualifications of teachers, something that we are 
doing in Rhode Island.
    Senator Alexander. So you think we should decide what the 
qualifications of teachers from Rhode Island should be, and 
what their salaries should be, and the length of the school 
day, and how long the physical activity program should be, and 
what the professional development for staff should look like?
    Mr. Tavares. I think it is very appropriate especially 
given the amount of money that you would be appropriating.
    Senator Alexander. What is left for you to do as Governor?
    Mr. Tavares. To make sure that we get the kids in the 
program, to make sure that we execute the program the proper 
way, to make sure that they are learning.
    Senator Alexander. So if you were Governor, you would like 
for Washington to design the preschool programs in Rhode Island 
and all you would do is just transport the children to the 
schools?
    Mr. Tavares. If I were Governor and you wanted to give us 
$75 million, I would follow your rules because that would allow 
me to serve a lot of children. And I would say having looked at 
the pre-K situation, it is about $6,000 or $7,000 per child 
that I estimate it would cost us in Rhode Island to have 
universal pre-K for our children.
    Senator Alexander. But you do not like the Child Care and 
Development Block Grant model, then?
    Mr. Tavares. I would, as I said, to receive assistance from 
the Federal Government, obviously----
    Senator Alexander. I am asking you which would work best 
for the children? The Child Care Development Block Grant gives 
the State great flexibility and the parents a choice. It is 
vouchers and it has strong bipartisan support. It has worked 
very well.
    Mr. Tavares. If you want to increase that by the amount of 
this bill, I think that that would be fine.
    Senator Alexander. No, it is the form of it or not. So what 
I hear you saying is that you would rather we make the 
decisions that if I were the Governor, I would like to make.
    Mr. Tavares. I am saying to you that from my perspective, 
we need more assistance. I am saying that I do not think that 
it is an issue that the U.S. Senate or the Federal Government 
is giving us some guidelines, and I think that that is 
appropriate.
    Obviously, as I said, any Governor would prefer no 
restrictions, but there are also dangers with that, and that is 
how that money is going to be spent, and that it is being spent 
appropriately.
    Senator Alexander. My time is up. I have said what I had to 
say.
    The Chairman. I might just add that all we ask is that the 
teachers teaching the kids have a B.A. degree; I do not think 
that is onerous.
    Senator Alexander. How about length of school day?
    The Chairman. We want a full school day, yes. We do not 
want to say, ``2 hours, 3 hours,'' something like that.
    Senator Alexander. Right.
    The Chairman. Yes, we specify there should be a full-day 
program if you want the Federal match.
    Senator Alexander. And the amount of the salary?
    The Chairman. Yes, we want people to be well paid, but we 
do not specify exactly what that salary is. We do not specify, 
so it will vary by State. Some States will have to pay more, 
some less. It varies by State and what is necessary to make the 
pay comparable to other teachers.
    But again, I say to my friend, we are the stewards of 
Federal tax dollars, not State tax dollars. If the States want 
to do different things with their State tax money, that is 
their purview. We have a responsibility to the Federal 
taxpayers to make sure that their Federal dollars are invested 
wisely and well.
    And we do make decisions. We do not just leave it up to a 
Governor or a State and say, ``Here is some money. We do not 
care what you do with it.'' Of course not. That would be 
shirking our responsibility. I think we are shirking our 
responsibility as Federal legislators.
    I may not always agree with Mayor Tavares when he is the 
Governor on certain things. I do not know, but as Governor, he 
has a lot of flexibility for his State tax dollars. All we are 
saying here is, in this bill,

          ``You want a match? Here are some certain things: 
        B.A. degree. Yes, you have to have full-day. You have 
        to make sure your teachers are paid comparably to other 
        teachers in the system.''

    We do not specify exact salaries and we leave it up to 
States to figure that out.
    I do not think that is onerous, again, I am just saying, 
that is being a good steward, I think, of Federal, of the 
taxpayers in this country. That is just my view on it.
    Senator Murray.

                      Statement of Senator Murray

    Senator Murray. Mr. Chairman, thank you very much, and I 
really appreciate you holding the hearing.
    I understand Senator Alexander's philosophy on not adding 
too much restriction, but I also know that people who pay tax 
dollars to the Federal Government want us to make sure it is 
being used well and that there are positive results from it. 
And I think we do have a responsibility as the Federal 
Government to make sure we are good stewards of the Federal tax 
dollar.
    But having said this, I want to thank you for having this 
hearing. I think it is extremely important. As you know, I was 
a former preschool teacher. This is my passion.
    I have in my office a very large quilt. Each one of the 
squares is made by one of the kids in my last preschool class I 
taught before I went to the State Senate, and it reminds me, 
every day of who I am serving and what is important.
    So I know how important it is, but I do not think you have 
to be a former teacher to know how important this is. I have 
heard from business leaders because they know that they need a 
well-educated workforce, how important this issue is.
    I have actually heard from a lot of military leaders, Mr. 
Chairman, who tell me that a quarter of young adults who want 
to serve their country, only a quarter of young adults are able 
to meet the minimum education and health requirements today. So 
we are turning away a lot of young men and women in the 
military today because they do not have the early investment 
they need to be educationally successful.
    I hear from sheriffs in Washington State who have told me 
that they know who ends up in their jails if they have not had 
early childhood education.
    We know the importance of this across the board and I 
think, as I have seen in my State as I have worked on this, and 
here at the Federal level, that we have across-the-board 
support. We have Republican Governors in Alabama, and Kansas, 
and Michigan who have made this a priority in their States.
    I am hoping that as we move forward on this, it will not be 
a partisan issue in the Senate either. I am very, very 
supportive of the Strong Start for America's Children Act. I 
hope that our Republican colleagues give us good input on it, 
and that we can really get some strong bipartisan support, and 
move it forward. I think it is absolutely critical that we 
cannot continue to do studies telling us how important early 
childhood education is and then just hope it happens. I think 
we have to make it a national priority.
    Having said that, I did want to be here at the hearing 
today and I have been in and out, and I apologize. It has been 
a busy morning.
    But we have heard a lot of concern from some that there are 
so many early learning programs out there. Here in Washington, 
DC, it is kind of a strange place, we know that the rhetoric 
inside the Beltway does not line up with what is happening in 
our States.
    I think the need for pre-K education is really a great 
example of this. I hear at home all the time about the lack of 
affordable, high quality preschool programs. But here in DC, I 
often hear that there are too many Federal early learning 
programs. So how come I hear at home that there is not enough 
and here I hear there is too many?
    I wanted to just ask two of you, Dr. Barnett, from a 
national perspective, Mayor Tavares from a local level. Is 
there duplication?
    Mr. Barnett. One of our jobs at the Institute is to try to 
figure out how many kids are served in public programs. It is a 
hard thing to do. Fragmentation does not make that easy.
    There are really only three big buckets, though, the 
childcare bucket, the Head Start bucket, and the State and 
local pre-K bucket. A lot of those other programs are programs 
that prepare teachers, or that feed kids, or Department of 
Defense schools. You are not going to block grant those to the 
State.
    We want to count all of those, but when we try to un-
duplicate, we find very few kids, actually, and we cannot be 
precise, but maybe 1 to 2 percent of kids who are in Head Start 
and some other program. And typically, those are kids who are 
getting a half-day funded by one, and a half-day funded by the 
other, and the State or local Governments figured out how to 
blend that, and provide the experience they want for their kids 
by bringing these programs together.
    Pretty much every State now has a council that has taken on 
themselves integrating these programs, reducing the 
fragmentation, and making it seamless at the local and State 
level.
    So there is not a lot of duplication. The main problem is 
there is not enough money to go around. The money that we have 
in early childhood is for everything, birth to five; it is not 
nearly enough. Even at age four, where most of the money is, 
and the money has been declining at the State level in terms of 
what is invested in each child for a decade now, and the 
recession actually made that much worse.
    States are responding, coming out of that, but to think 
that we have plenty of money, all we need to do is redistribute 
it. No. There is not nearly enough money in the system. 
Redistributing it is just going to mean taking it away from 
somebody and giving it to somebody else.
    Senator Murray. Mayor.
    Mr. Tavares. Thank you, Senator. Let me just say this. I 
will repeat what I said earlier and that is one-third, one-
third of our eligible Head Start children are participating in 
Head Start. And it is not because they do not know about it. It 
is because we do not have the space for them.
    In Rhode Island, we do not have full-day kindergarten. I am 
not talking about pre-K; I am talking about kindergarten. We do 
not have full-day K. Providence does, some cities do, but we 
have a situation that we do not have the funding to make sure 
that we have a full-day kindergarten for our children right now 
based on what we are receiving and everything else that we are 
doing.
    In terms of duplication, I am sure that someone can find 
something somewhere that might be duplication, but I can tell 
you in Rhode Island, the need is there. It is critical and it 
is an investment that we are trying to make, but we certainly 
this bill would help us immensely prepare our kids to succeed 
and to lead.
    We certainly welcome the Senate's bill and that is why I am 
here today.
    Senator Murray. Thank you. Mr. Chairman, before I turn it 
over, I just wanted to say, I think it would be easy for us to 
sit back here and say, ``Our States or local communities think 
this is important, they will just do it.''
    But we need every child in this country to be able to 
fulfill their potential if our military is saying they do not 
have enough qualified people. If our business leaders are 
saying, ``We need people.'' If we are putting too many kids in 
jails, we cannot just hope. We need to make sure it is a 
national priority.
    I really appreciate you working on this bill.
    The Chairman. Thank you, Senator Murray.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Mr. Chairman. And thank you for 
this hearing, by the way. We are grateful for the time on this 
issue.
    I would just offer a comment before, and I will start with 
Mr. Pepper because of his Pennsylvania roots and connections. I 
will be shamelessly parochial, if you do not mind.
    But I want to say a couple of things about the issue and 
then what it means to the country. I believe that if we are 
doing enough for not just children, but for our future, we 
would make sure the children have at least four things. Maybe 
you could add to this, but certainly quality early learning has 
to be part of that; that is the subject of today's discussion. 
Certainly healthcare, quality healthcare at the same time; 
enough to eat and hopefully as nutritious as possible; and 
fourth, to protect them from predators who will do them harm. 
And all four priorities are critically important.
    I have to say when you add them all up, we are nowhere near 
where we ought to be. We made tremendous progress on children's 
health insurance in the last generation, thankfully, but even 
with the Children's Health Insurance Program, even with 
Medicaid, we still have a lot of uninsured children in very 
difficult circumstances. That has been a measure of progress.
    On a national strategy, it should be, I think, in 
partnership with the States, and we should learn from the 
States and work with them as this legislation would do. I 
cannot say it any other way other than to say it has been a 
national failure. Other than, if you take out Head Start and 
what individual States have done in the last generation or 
more, other than that, it is a national failure, and that is 
why we are here today.
    I was especially impressed, Mr. Pepper, by some of the 
remarks that you made, some of them very sobering. I think I am 
quoting you accurately. I wrote it down here. You are worried 
about the future of our Nation. You said that at the beginning 
of your testimony.
    You also said later that passing this bill, or something 
comparable to it is a, ``Financial no-brainer,'' which, I have 
not run a business like you have, so to have you say that is 
great validation of what we are trying to do.
    You also said this would be transformational, and you have 
a sense of urgency about this issue that, frankly, Washington 
does not have.
    Then finally, though, one of the last things you said while 
I was here, and I know I was back and forth, is, ``Make it 
happen.'' Again, that sense of urgency.
    I wanted to ask you, in particular: you talked about the 
skills gap and a lot of that is certainly academic. But what 
about the other skills, what some call ``soft skills'' or other 
skills that you hope would be inculcated in the life of a child 
early in their development, and that can manifest themselves 
later when they are in school and then eventually in the 
workforce?
    Mr. Pepper. Senator, what I referred to there, I think the 
first things that employers would look for once a person is on 
the job and you know what they are: ability to focus, overcome 
adversity, cooperate with other people, a sense of independence 
but also working with other people. And these things happen at 
very early ages.
    It is hard to happen just alone in a home when, as Senator 
Harkin was saying, 38 percent of the children 0 to 5 in Ohio 
are living in a home with one parent and almost every one of 
those parents are working. So to be able to be in a quality 
preschool with a teacher, with a ratio with other kids is 
starting to develop those elements of sharing, coming in and 
coming back to the home.
    At work it is attention to task, persistence, all of these 
things. We know what they are, these values. They are what, I 
believe, explains the fact that these effects have continued on 
in these long-term studies that we have seen in incarceration, 
we have seen it in income, graduating from college.
    I will not rehearse the elements of urgency I feel. I hope 
I conveyed them. I really do feel we have a big challenge in 
this country which is kind of like a cancer. You may not know 
it is growing.
    It was not too long ago, a generation ago, we were the No. 
1 country in the developed world having college graduates. We 
still have the most to enter college. We are now No. 12 or 18 
depending on what you look at in terms of actually, at that age 
group, having college graduates.
    The numbers, I think, it is 55 million new jobs that are 
going to be created by the year 2020. Sixty-five percent will 
require more than a high school education. This is data. We do 
not know if it is exactly right, but it is probably about 
right. Sixty-five percent will require more than a high school 
education, yet we still have 20 percent of children that are 
not graduating. What is to become of them?
    I take the point that was made earlier, too, by Senator 
Franken. There is the element here of each child. Why should my 
grandchildren, why should you--because you are a child in a 
certain zip code in Indian Hill in Cincinnati--have a better 
right to life and grow up than somebody down in the other area 
when we have a program that works, that we are giving to about 
25 percent of the children who need it? Now that is about our 
number. And for whom we have a lot of evidence that it will all 
come back to us if all you care about is the finances.
    How do you look at that picture and not act quickly, 
resolving differences that will probably exist? But if in a 
business setting, if I had this kind of situation, do you know 
what I would do? And there would be disagreement in the top 
team what we ought to do. I would go offsite and I would say,

          ``We are going to take the next weekend or the next 
        week, and we will come out of here with a bill or a 
        plan that we are rallying behind and we are going to do 
        it.''

    Because I would feel if I did not do this, I was failing 
the company. That is how I view this.
    Senator Casey. I am out of time, but I want to make sure 
that someone who was born in Pottsville, PA gets the last word.
    The prepared statement of Senator Casey follows.]

                  Prepared Statement of Senator Casey

    Chairman Harkin, thank you for convening this hearing to 
talk about S. 1697, the Strong Start for America's Children 
Act. It has been a pleasure working with you on this 
legislation, and I am excited about this opportunity to 
highlight our shared commitment to promoting pre-kindergarten.
    I have been a strong supporter of early learning for many 
years. One of the first bills I authored, the Prepare All Kids 
Act, became one of the bills upon which the Strong Start Act is 
modeled. Chairman Harkin and his staff worked with me, with 
Senator Murray and with Senator Hirono on the Strong Start for 
America's Children. It has been a privilege to join with the 
other champions of early learning in the Senate on this 
important legislation.
    This legislation being discussed today, the Strong Start 
Act, represents a major step forward in our fight to ensure 
that all children have access to affordable and high-quality 
early learning experiences.
    Many States, including Pennsylvania, have already made 
important investments in early learning, including in pre-K. 
Pennsylvania's Pre-K Counts program is currently serving almost 
12,000 3- and 4-year-olds, but that is just a fraction of the 
children who need access to high-quality pre-K.
    An increasing body of evidence demonstrates the lasting 
impact of high-quality early learning. Children who participate 
in quality early learning programs do better on a host of 
measures, including both academic measures (higher academic 
achievement, lower rates of grade repetition, less use of 
special and remedial education) and social measures (decreased 
crime, increased socio-emotional skills).
    Successful children turn into successful adults, or as I 
like to say, ``when kids learn more now, they earn more 
later.'' Society benefits in many ways. We save money by 
incarcerating fewer people and having to pay for less remedial 
education. Employers benefit from a better-trained and more 
capable workforce. It all starts with high-quality early 
learning.
    I thank Chairman Harkin for holding this important hearing, 
and I thank our witnesses for their testimony. I hope we will 
be able to mark up the Strong Start Act in the near future, and 
I look forward to continuing my support of this important 
legislation.

    Mr. Pepper. Thanks very much. I would also celebrate coming 
from Pottsville, Yuengling Beer.
    Senator Casey. Right.
    Mr. Pepper. OK? It would spray everywhere, Senator Casey, 
and it came into Cincinnati or Ohio recently, and I was told by 
Dick Yuengling, who was a childhood friend of mine, that it was 
the best entry he had had in any State in the Nation, and I was 
proud of that.
    Senator Casey. We just want you to move back to 
Pennsylvania.

    Mr. Pepper. I am going to come back and visit again. I was 
very happy to be in Harrisburg. That was my capital when I grew 
up. Thank you.
    The Chairman. Thank you all very much. With an attitude 
like that, Mr. Pepper, I have no idea what your party politics 
are or if you even have party politics, but with that attitude, 
we need you in the U.S. Senate, I can tell you that about 
working things out. Just get together and work it out.
    I just wanted to point out again, I do not mean to go on 
too long, but I am just writing down here just some of the 
cities that I know that are moving ahead on a full-day type of 
preschool. They are investing in high quality teachers: San 
Antonio, Mayor Castro; Denver, Mayor Hancock; New York, Mayor 
De Blasio; Chicago, Mayor Emanuel; and Providence, Mayor 
Tavares.
    Some cities' mayors are getting it. They are doing it, but 
that sort of begs the question. Should we just not do anything 
and let the cities do their own things? But I do not think we 
can wait that long. I mean, not every city can do it. They have 
other things that they need to do, and so some people might 
look at that and say, ``Well, why do we need to do anything?''
    I think what I have heard from most of you, anyway, is that 
we do need to have a national approach on this. And that is 
just, again, a thing I have often thought about is, why should 
we take tax dollars from Iowans, Federal tax dollars and put it 
into programs in Providence, or Cincinnati, or wherever? And 
that is because a child that grows up in Iowa, or Missouri, or 
Ohio that is ill-educated does not stay in that city or that 
State. They can move to Iowa or they can move anywhere, so we 
are one Nation.
    And so, there are some things that we have to look upon as 
national efforts. Certainly, that is why you leave as much 
flexibility to the States as possible, and I thought that was 
what I have tried to do in this bill, setting up certain 
standards. Make sure it is a full-day rather than a half day or 
quality teachers that type of thing.
    We want to give States flexibility on how to manage it, but 
understanding that this is a national effort that we have to do 
because we are one Nation. People move around. And so, that is 
why. And not in every instance, but in many of these instances, 
it behooves us to make sure that we address it in a national 
way, even though we say, ``Well, we are taking tax dollars from 
Pennsylvania and it is going to some other State.'' Well, 
because it is going to the kids and those kids can live in 
Pennsylvania later on too or any other State.
    I do not have anything else.
    I yield to Senator Alexander.
    Senator Alexander. No, I do not have anything else except I 
will be offering a proposal within the next couple of weeks 
that will be modeled along the line of what Dr. Whitehurst and 
I discussed. Which is to take the Federal dollars we now spend 
and model it along the lines of the Child Care and Development 
Block Grant, which would give the States maximum flexibility 
and parents maximum flexibility.
    So that the GAO's figures are right and Dr. Whitehurst's 
figures are right, it could be up to $22 billion of Federal 
dollars now headed toward early childhood in one form or 
another; maybe it is somewhat less than that.
    But it is a lot of money and we would be saying to the 
Governors and the mayors,

          ``Let us see what you can do with this. Take this 
        money and combine it with yours, combine it with 
        private money and we will be the enablers. We will not 
        be the mandaters,''

and we will respect what the Louisiana State superintendent 
said, which was they have this council to try to take these big 
buckets and make them work together. And he said, ``The 
greatest barrier to implanting a pre-Kindergarten program in 
Louisiana was the fragmentation of it.''
    So we will have that proposal because of the great need in 
our country for more effective early childhood development. And 
then, we will work together as we always do to see where we end 
up.
    Thank you, Mr. Chairman.
    The Chairman. I think that is good news because we have 
philosophical differences, I understand that in this committee, 
but as Senator Alexander has always said, we probably have the 
most philosophically divergent committee in the entire Senate.
    Senator Alexander. But the most productive.
    The Chairman. But the what?
    Senator Alexander. The most productive.
    The Chairman. The most productive. We do get things done.
    Senator Alexander. Yes.
    The Chairman. And that is because we work together and we 
hammer these things out, and I look forward to hammering this 
one out, and getting something done so we can mark-up a good 
bill and address this issue. So I appreciate Senator Alexander, 
has always been great to work with, and I see no reason why we 
cannot hammer this one out too one way or the other.
    Thank you very much. You have been great witnesses. And I 
hope that you will be available for further questions and input 
as we begin to develop this legislation in the next month or 
so.
    Thank you all very much.
    The record will stay open for 10 days for Members to submit 
statements or other questions.
    The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

Prepared Statement of Tadeo Saenz-Thompson, Chief Executive Officer of 
  Inspire Development Centers, Sunnyside, WA and Board Member and CEO 
  Affiliate President of the National Migrant and Seasonal Head Start 
                              Association
    Chairman Harkin, Ranking Member Alexander, Senator Murray, and 
members of the Senate Committee on Health, Education, Labor, and 
Pensions, I thank you for the opportunity to submit this statement on 
behalf of the farmworker families and children I work with in 
Washington State and my colleagues with National Migrant and Seasonal 
Head Start Association, for allowing us to participate in today's 
hearing by submitting this statement for the record.
    I am the chief executive officer (CEO) at Inspire Development 
Centers, an Early Care and Education agency with the mission to inspire 
growth, learning and success in life; one child, one family and one 
community at a time. We are one of the largest providers of services in 
the State with presence in twenty-three (23) rural communities. I am a 
resident of rural Washington and a proud naturalized citizen of the 
United States of America.
    I congratulate members of the committee on Health, Education, 
Labor, and Pensions for recognizing the importance early childhood 
education plays in the positive development of all aspects of our 
society and in preparing our children to lead our country into the 
great future I am sure you, as I do, foresee. I offer this statement 
both as a citizen and on behalf of the Migrant and Seasonal Head Start 
community and I share some of our experiences working with low-income 
Latino children and farmworkers. I also offer to assist or be a 
resource to the committee in the coming months, as you consider the 
Strong Start for America's Children Act (S. 1697), a bill that promises 
to make quality early learning available to all children.
    The National Migrant and Seasonal Head Start Association is a 
membership association that includes and represents Migrant and 
Seasonal Head Start directors, staff, parents, and friends from across 
the country. Every year some 30,000 children along with their families 
are served by Migrant and Seasonal Head Start programs operating across 
the country. All of the families we serve have incomes that are well 
below the poverty line and over 90 percent of the children we serve are 
Latino. By advocating for resources, creating partnerships, and 
affecting public policy, we support our members and their work to 
educate and empower farmworker families.
    As background, Migrant and Seasonal Head Start (MSHS) was launched 
in 1969, 4 years after Congress authorized Head Start. MSHS was created 
to ensure that the educational advantages made available to low-income 
children through Head Start were available to the children of 
farmworkers and the MSHS model was designed specifically to address the 
unique needs of farmworker families and their young children. Over the 
last 40-plus years, we have learned some important lessons about how to 
effectively reach and provide quality education and comprehensive 
services to farmworker families and their young children and we 
appreciate the opportunity to share our insights with the committee.
    I would like to describe several core challenges that face 
farmworker families and explain how MSHS programs work to overcome 
those challenges in order to serve these families and their children.
                   the demands of agricultural labor
    Migrant and Seasonal Head Start is unique in that parents are 
required to work in order to qualify for services. In order for a child 
to be eligible for Migrant and Seasonal Head Start a family must 
demonstrate that over half of the family's annual income was earned in 
agricultural work. Most of our families have two parents working in the 
field and according to the U.S. Department of Labor the average 
farmworker family earns less than $10,000/year and has no health 
benefits. Farm labor keeps adults in the field for up to 10 hours a day 
and often 6 days a week during the harvests and exposure to pesticides 
is common.
    Migrant farmworker families face additional challenges as they move 
within a State or across State lines for work. On average, a migrant 
farmworker family will move two to three times a year in pursuit of 
agricultural work often following one of three traditional migrant 
streams within States and across State lines as their seasonal 
agricultural work demands. In most communities, local childcare 
resources are not available, especially for infants and toddlers, when 
farmworker families arrive and when resources are not available, 
parents have no choice but to arrange for unlicensed childcare 
relationships or take their children with them to the fields where they 
are exposed to pesticides, hazardous equipment, extreme heat, and other 
health dangers. The attached map shows some of the most common migrant 
streams, but to be clear, families move up, down and across the country 
to meet the needs of America's farmers and the agriculture industry, 
wherever that need may be. Indeed, the past President of the National 
Migrant Head Start Association's Parent Affiliate travels each year 
between Fort Meade, FL where his family harvests oranges and other 
seasonal crops, to Sunnyside, WA where his family harvest apples and 
cherries.
    To accommodate the demands of the labor market and effectively 
serve farmworker families, MSHS programs operate seasonally, some for 2 
months and others for 6 months, as needed. During the peak agricultural 
season MSHS programs are open up to 7 days a week for 8 to 14 hours a 
day to accommodate the needs of parents working in the field or packing 
houses.
    MSHS providers work to coordinate services within and across State 
lines as families migrate during the year. Our programs maintain an 
effective network that provides seamless services to children and their 
families, transfer academic and medical records and avoid disrupting a 
child's education.
    Bernarda Alatore came to Inspire Development Centers as a migrant 
seasonal farmworker, a single mother of four children, three of whom 
were in need of special services. Ms. Alatore migrated from Oregon, 
where she received Head Start services, to find work for herself in 
Washington State. She began to work in the fields harvesting a variety 
of seasonal crops. She brought her children to Inspire Development 
Centers in Pasco, WA where she felt confident that her children's needs 
would continue to be served by the Migrant and Seasonal Head Start 
program that she had come to rely on for her children's early education 
and personal growth needs. Her determination to make a better life for 
herself and her family prompted her involvement with our Family Service 
Workers who assisted her with setting goals and accessing local 
resources to help her achieve those goals. She gained confidence and 
began to develop her abilities and soon was very involved with the 
Child Development Center. She served as a member of the Policy Council 
and was chosen to attend the Public Policy Forum in Washington, DC. Ms. 
Alatore worked actively in the community as an advocate for the Pasco 
Center and was involved in volunteer recruitment activities. Ms. 
Alatore continued setting new goals for herself and her children and 
she recently started her own business working out of her home. Ms. 
Alatore has enjoyed success in this endeavor and feels she has reached 
a comfortable position in her personal life in which she can better 
support her children's goals.
                           parent involvement
    As I mentioned, MSHS is unique in that parents are required to work 
in order to qualify for services. Most of our families have two parents 
working in the field and despite working long hours in very difficult 
conditions, our parents are very involved in the operation of the Head 
Start center and their children's education. They understand the 
importance of building a partnership with their child's educational 
programs and they are engaged. For example, to address the 30 million 
word gap, parents are taught in evening sessions how to expand how they 
talk with their children by taking a book home each day and doing a 
lap-time session each evening. Parents quickly realize their power in 
helping their children gain vocabulary and concepts in their home 
language, which is easily converted as the children learn English. We 
know parent engagement is an essential element of our success and the 
success of our Migrant and Seasonal Head Start graduates.
    MSHS program directors work with parents to make sure meetings and 
trainings are scheduled when and where parents can participate. This 
requires flexible staff, willing to work evenings and weekends to meet 
with parents when they are not working. Staff must be bilingual and 
culturally competent to engage parents in a meaningful way and earn 
their trust. Latino families value education, see it as the way out of 
poverty and when they learn to expect success from their children, it 
happens.
    I'd like to share the story of Mr. Mendoza, a Head Start parent 
since 2012, and currently the Secretary of the Migrant Seasonal Head 
Start policy council for the Community Action Partnership of San Luis 
Obispo (CAPSLO) in California. Mr. Mendoza attended CAPSLO's Male/
Father Engagement groups in 2012, a program that uses the Abriendo 
Puertas Curriculum, the Nation's first evidence-based parent leadership 
and advocacy curriculum for Latino parents with children under the age 
of 5. The following year, after he and his family migrated back to 
Santa Maria from Oxnard, CA, he situated his children at the Cielito 
MSHS center and attended the second round of Male/Father Engagement 
groups. Mr. Mendoza made it a goal to become more engaged as a Head 
Start parent after he attended these classes. He decided he wanted to 
serve in a leadership position on the MSHS policy council because he 
knew people listened to him and he could make a difference giving a 
voice to other parents and a role model. Mr. Mendoza's story 
illustrates the power of parent engagement and I am happy to report 
that I frequently hear stories like Mr. Mendoza's from MSHS programs 
across the country.
      providing comprehensive and culturally appropriate services
    Like all Head Start programs, MSHS programs are interdisciplinary, 
which means we focus on education, health (physical, dental, and 
mental), social services, nutrition, and parent engagement. And like 
all Head Start programs we firmly believe that providing comprehensive 
services to children and families is essential to our success. 
Approximately 84 percent of the farmworker families we serve speak 
Spanish as a primary language at home and our programs are designed and 
staffed to ensure that children and families are provided with 
linguistically and culturally appropriate services and opportunities to 
learn and grow.
                  first to serve infants and toddlers
    Since launched in 1969, well before the Early Head Start was 
created in 1994, MSHS programs have had the opportunity to serve 
eligible children from 6 weeks to 5 years of age. As a result, all MSHS 
facilities are designed to serve babies, toddlers, and preschoolers in 
one building. Our programs are recognized experts in the comprehensive 
care and development of children from birth through school-age 
attendance. On average some 75 percent of the children enrolled in MSHS 
programs are under 4 years of age and infants and toddlers comprise 
more than half of the children on the MSHS waiting lists. MSHS programs 
receive one grant to serve eligible children and with the exception of 
the Early Head Start dollars provided through American Recovery and 
Reinvestment Act of 2009, MSHS programs had not received Early Head 
Start funding. We were pleased to have a portion of the fiscal year 
2014 Early Head Start expansion funds set aside to enable MSHS programs 
to expand services to infants and toddlers. This opportunity to expand 
services to serve more infant and toddlers is an important step and we 
appreciate the work Senator Harkin, Senator Murray and others did to 
make sure the needs of MSHS children were addressed.
    I hope the stories and the experiences I have shared will be 
instructive as the committee considers legislation, like the Strong 
Start for America's Children Act, intended to make quality early 
childhood education available to all children and particularly our most 
vulnerable. Migrant and Seasonal Head Start is a tested and successful 
model that is instructive in understanding how a program can 
effectively reach and meet the needs of farmworker families. The 
challenges that faced farmworkers in 1969 and lead to the creation of 
Migrant and Seasonal Head Start--long hours, the seasonal and rural 
nature of the work, transportation, language, health and safety 
issues--are still in place today and must be addressed as Congress 
considers ways to strengthen existing early education programs like 
Head Start and or launch new initiatives in partnership with the 
States.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Prepared Statement of the National Indian Head Start Directors 
                              Association
                              introduction
    Thank you for this opportunity to submit testimony on behalf of the 
National Indian Head Start Directors Association (NIHSDA) with regard 
to the Strong Start for America's Children Act (Strong Start Act).
    NIHSDA has been the recognized voice for American Indian and Alaska 
Native Head Start programs for over 30 years. We have always sought to 
advocate for the best interests of Native children and their families 
through actively educating Federal officials about our programs and the 
needs of our communities. Indian Head Start programs have been a vital 
part of Head Start since its inception in 1965, and we have a wealth of 
expertise to offer regarding early childhood education. NIHSDA welcomes 
the opportunity to work with the committee as it considers the Strong 
Start Act.
    Early childhood education in Indian Country. NIHSDA thanks the 
sponsors of the Strong Start Act for bringing back to the forefront of 
the national conversation the importance of early childhood education 
to the future of our country. Just as Head Start has transformed the 
lives of millions of low-income children and their families since the 
1960s, this legislation presents an opportunity to advance early 
childhood education for decades to come. NIHSDA believes that Native 
interests are in strong alignment with the goals of the Strong Start 
Act. NIHSDA will work closely with Congress to address how the Act can 
be tailored to achieve its objectives in the unique circumstances of 
Indian Country as well as how the Act can support Native culture and 
Native learning processes.
    The Constitution of the United States, treaties, Federal statutes, 
executive orders, Supreme Court doctrine, and other agreements define 
the Federal Government's trust obligation to protect the interests of 
Indian peoples, especially in the education and health areas. The 
special challenges facing Indian communities require special 
consideration in the legislation. Many Indian reservations suffer from 
depression-era economics, with terrible crime and health statistics to 
match. The Indian reservation poverty rate is 31.2 percent, nearly 
three times the national average of 11.6 percent. The Indian 
reservation rate is comparable to the national rate at the height of 
the Great Depression. The Indian reservation unemployment rate is 
approximately 50 percent, ten times the national unemployment rate of 
5.2 percent (and on some reservations the rate is 80-90 percent). Most 
Indian communities are remotely located and there are no other 
resources besides Head Start to address the special needs of young 
Indian children who, on a daily basis, must deal with the conditions 
described above. The synergistic confluence of all of these negative 
factors is often overwhelming. Indian Head Start has been the best 
Federal program in place that actually addresses the dire situation in 
much of Indian Country, while doing so in a culturally appropriate and 
effective manner.
    Fully incorporating Native children into the Strong Start Act. 
NIHSDA strongly believes that the most effective Federal Indian 
programs are the ones that work directly with tribes, such as the Head 
Start program, rather than through the States. State involvement or 
control over our programs can hinder our ability to shape the most 
appropriate and responsive early education programs for children in our 
communities. Because tribes have widely varying relationships with 
their States, sufficient set-asides for tribal programs are critical to 
ensuring that adequate funding is made available to Native communities. 
NIHSDA is pleased to see that the idea of set-asides for tribal 
programs is built into the Strong Start Act. NIHSDA remains concerned, 
however, about the State-centered approach and would like to work with 
Congress to ensure that efforts to extend early childhood education 
programs to all children do not come at the expense of the ability to 
implement effective programs for Native children.
    Additionally, creating and sustaining effective programs requires 
meaningful consultation with tribes early in the process of drafting 
legislation that impacts Indian Country. Congress and the 
Administration should reach out to tribal partners to receive much-
needed input on how programs should be implemented in Native 
communities.
    In the current budget climate, NIHSDA remains concerned about the 
scarcity of resources. Indian Head Start programs, as well as the 
communities they serve, were hit hard by the effects of sequestration 
and budget cuts. If Head Start and the new pre-K initiatives in the 
Strong Start Act are not fully funded, their potential will be 
seriously compromised. NIHSDA also seeks clarity about how the 
initiative will be implemented on reservations and in Native 
communities, particularly with respect to the proposed Early Head 
Start-Child Care partnership grants. It appears that these grants may 
be largely contingent on partnerships with organizations and facilities 
that may be in short supply in many areas where American Indian and 
Alaska Native children live, or that may at times be incompatible with 
the unique needs and interests of Native children. To fully incorporate 
Indian children into the benefits of the Strong Start Act, the 
particular circumstances of American Indian and Alaska Native 
communities must be taken into account.
                               conclusion
    For all Americans, our children are the most precious part of our 
lives.
    This legislation is an opportunity for America to come together and 
invest in our children, creating a brighter future for all. We thank 
you for your efforts to ensure access to high-quality early childhood 
education throughout the country. We encourage you to engage in 
meaningful consultation with tribal communities as this legislation 
moves forward. We hope that this is the beginning of a fruitful 
collaboration as we work together with you to make our shared dreams a 
reality for all our children.
    For more information, please contact Teri Stringer at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cfbbaabda68fbba7bdaaaaa9aaaebba7aabdbcaebcbca0ace1aca0a2">[email&#160;protected]</a> or Greg Smith at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="791e0a14100d113911161b1b0a0a0d0b180c0a571a161457">[email&#160;protected]</a>
                                   Jacki Haight, President.
                                 ______
                                 
                                      May 12, 2014.
U.S. Senator Robert P. Casey,
Education Policy Office,
Committee on Health, Education, Labor, and Pensions,
615 Hart Senate Office Building,
Washington, DC 20510.

Re:  Response to Question from Senator Casey

    Dear Senator Casey: Thank you for your question about whether I 
worry about Providence and Rhode Island children falling behind their 
peers because of limited access to high-quality early learning 
opportunities.
    As a strong supporter of early childhood learning, I am deeply 
concerned that not every child is afforded the same access to education 
in the earliest years of life. I understand from personal experience 
how critical this early support is to future academic success.
    Studies have demonstrated that participation in pre-kindergarten 
programs help young people develop important cognitive, behavioral and 
problem-solving skills. Pre-kindergarten graduates are more likely to 
attend college, maintain a full-time job, and have health insurance.\1\ 
According to the Economic Policy Institute, lifetime economic benefits 
realize a return-on-investment of as much as $11 for each dollar 
invested.\2\
---------------------------------------------------------------------------
    \1\ ``High quality preschool program produces long-term economic 
payoff,'' National Institutes of Health, 2/4/2011.
    \2\ ``Enriching Children, Enriching the Nation: Rhode Island 
Summary,'' Lynch, Economic Policy institute, 7 /9/2007.
---------------------------------------------------------------------------
    Unfortunately, early childhood learning programs in Rhode Island 
and others are severely limited in scope and only serve a small 
percentage of children in need. According to the 2014 Rhode Island KIDS 
COUNT Factbook, only 2 percent of 4-year-olds in Rhode Island are 
currently enrolled in our State-financed Pre-K program.\3\
---------------------------------------------------------------------------
    \3\ ``Children enrolled in State Pre-K,'' 2014 Rhode Island KIDS 
COUNT Factbook.
---------------------------------------------------------------------------
    That is why, as Mayor, I have made early childhood learning a top 
priority of my administration.
    Our winning initiative, Providence Talks addresses the research 
that children growing up in low-income households hear up to 30 million 
fewer words than their middle and high-income peers by their fourth 
birthday. Thanks to a $5 million investment from Bloomberg 
Philanthropies, Providence is empowering parents and caretakers with 
the tools and resources necessary to strengthen their household 
auditory environments.
    I was proud to be able testify in strong support of S. 1697, the 
Strong Start for America's Children Act. Thank you for co-sponsoring 
this important legislation and for supporting America's first Federal 
funding formula for high-quality, full-day pre-kindergarten. This Act 
ensures that our youngest learners are afforded the same opportunities 
to succeed--not only in Rhode Island, but across our country.
    Again, thank you for your leadership in promoting effective early 
childhood education.
            Sincerely,
                                             Angel Taveras,
                                             Mayor, Providence, RI.
       Response of Steven Barnett to Questions of Senator Murray 
                           and Senator Casey
                             senator murray
    In your testimony before the Senate HELP Committee you discussed 
some of the positive impacts high-quality early childhood education has 
on student's success. As you may know, literacy is critical to a 
child's success in school and later in life. Support for early literacy 
development should start very early in a child's life, whether that's 
in their own home, a child care site, or an early childhood education 
program.
    Question 1. Can you discuss the gap that currently exists in early 
literacy opportunities between lower income children and their peers?
    Answer 1. The ``literacy gap'' is not simply a static difference 
between low-income children and others, but a continuously expanding 
gap between children from the most advantaged families and children 
from both middle- and low-income families. This gap is remarkably large 
for children in middle-income families and becomes twice as large for 
children in poverty (Barnett & Nores, 2014). Contributors to the gap 
include differences in home and community experiences associated with 
parental education and income levels and differences in the experiences 
children have because of what parents can purchase for their children 
including digital media, visits to zoos, libraries, museums, and even 
stores (low-income communities have less print on display and far fewer 
children's books readily available), and, of course, good preschool 
education programs. The children of high-school dropouts have only a 1 
in 10 chance of attending a good preschool program; children of high 
school graduates have a 2 in 10 chance of good preschool. Even for the 
most educated parents this rises to just 3 in 10 (Barnett & Nores, 
2014).

    Question 2. How will the Strong Start for America's Children Act 
help close the opportunity gap between lower income children and their 
peers?
    Answer 2. The Strong Start for America's Children Act provides 
incentives for States to increase access to quality preschool programs 
beginning with those in families under 200 percent of the Federal 
poverty line. This will reduce the opportunity gap in two ways. First, 
it will increase access to good preschool programs for low- and 
moderate-income families, and it will increase access the most for 
those who currently have least access. Second, although all children 
benefit from high quality programs, language and literacy gains are 
larger for children from lower income families.
    My overall assessment of the data on program participation is that 
Hispanic immigrant families in particular have a very strong need for 
such programs because their young children often have extremely low 
levels of English language and literacy proficiency. Hispanic parents 
also are highly reluctant to send their children to poor or mediocre 
quality programs. However, they do send their children at very high 
rates to high quality public preschool education programs when these 
are available in their community.
                             senator casey
    Questions 1 and 2. Thank you for talking about the elements that 
constitute quality early learning, such as low student-teacher ratios 
and qualified teachers, and how they are an interconnected network 
that, as a whole, creates positive results for children when maintained 
over time. What can we do to ensure that programs are looking at 
quality in this holistic, and continual, way, and not just checking off 
boxes on a list?
    How do we maintain quality in the long term? Is it a matter of 
ongoing teacher preparation and professional development, or further 
reductions in class size? Given that you've talked about quality as a 
combination of factors, how should a State looking to improve quality, 
but with limited resources, prioritize their investments to get the 
greatest improvement in quality?
    Answers 1 and 2. Both questions focus on the key question of how to 
ensure quality and, thus effectiveness, and the answers are related. 
Programs must have a way to measure quality and outcomes for children 
across all domains of learning and development. Current measures are 
not up to the task. The inexpensive ones are too narrow or unreliable, 
while a comprehensive battery is too time consuming and expensive. 
Congress could support research and development on better measures of 
(1) learning and (2) teaching for young children that could be used in 
continuous improvement systems at a reasonable cost in time and money. 
It is prohibitively expensive for each State to do this independently. 
Two current initiatives to develop kindergarten entry assessments are 
useful, but not nearly enough. There should be enough invested in this 
effort to create a competitive market place for the best approaches. 
Without such an effort I fear that States will adopt poor measures 
because they are required to have something for accountability and 
evaluation. However, they will largely ignore the results because they 
know that the data are unreliable or, worse, they will make high stakes 
or costly decisions based on invalid information.
    Congress could also provide for more frequent national surveys of 
program practices, availability and quality based on actual 
observation. The most recently available data are from 2005 and apply 
to just 4-year-olds. It would be useful to measure the quality of a 
sample of preschool programs nationally at least every 5 years and for 
children from birth to 5. Such data also ought to be more widely 
disseminated. For example, it is not widely known that the percentage 
of preschool teachers scoring good or better on measures of teaching 
quality was twice as high in the Northeast as in other regions of the 
country in 2005.
    Finally, many Federal programs require that recipients of funding 
conduct evaluations. Typically these are one shot, point in time 
measures of outcomes that are not really capable of producing valid 
conclusions about program effects on outcomes and do not produce 
results that can be combined or compared. It would be more useful to 
require that programs have continuous improvement systems in which data 
are used much like a GPS--to tell people how to get to their goals from 
where they are and make course corrections as needed.
  Response of Grover J. (Russ) Whitehurst to Question of Senator Casey
    You have said that you're not advocating reducing Federal spending, 
but targeting it. Currently, Head Start serves children below the 
Federal poverty line. Most children receiving Federal child care 
subsidies are from families with incomes below 150 percent of poverty. 
The Strong Start Act would require States to focus first on 4-year-olds 
below 200 percent of poverty, and then they may expand to the same 
group of 3-year-olds. These children are not fully served by existing 
early learning programs; the three largest programs serve less than 
one-third of all eligible low-income children.

    Question 1. How much more targeted do you see us getting?
    Answer 1. Evidence strongly suggests that children from the most 
disadvantaged families are the most likely to benefit from organized 
pre-school settings. President Obama's proposal for Preschool for All 
provides a strong financial incentive for States to provide free pre-K 
for all children. In my view, State and Federal funds would be more 
productively deployed to serve children in greatest need rather than to 
serve all children. My policy preference is for a sliding scale of 
financial support based on family income rather than a hard cutoff such 
as 150 percent of the poverty line.

    Question 2. How would you determine which families are in the worst 
circumstances? How would you get them into services and what would 
those services be?
    Answer 2. Family income, parental education, and children's 
disability and linguistic status could be used to qualify children for 
basic services (e.g., center-based care) funded by the taxpayer on a 
sliding scale. Additional funds would be available for intensive 
services (e.g., home visiting) for children with exceptional needs, 
based on evaluations and recommendations by social service, child care, 
and health care providers. Families would be in the driver's seat in 
determining which services to obtain for their children, but States 
would be required to help parents through the collection and provision 
of information on the quality and characteristics of individual service 
providers and through web-based tools to help parents shop and nudge 
them toward good selections.

    Question 3. You have previously said that $7,000-$8,000 should be 
enough for families to purchase good care. Do you really think you can 
find good quality infant-toddler care for that amount? The average cost 
of infant care falls beneath that level in only 15 States, and exceeds 
$10,000 in 19 States--and these are for current levels of quality that 
aren't very high.
    Answer 3. You are, presumably, referring to an answer I gave to a 
member question during a House Education and Workforce Committee 
hearing in February 2014. Rep. Tierney asked whether the cost of early 
education of $5,000 to $10,000 per student would be equivalent to the 
cost of a voucher in a Federal voucher system. I replied that 
contingent upon the geographic region and the age of the child a $7,000 
to $8,000 voucher would allow for quality childcare. I was referring 
specifically to the cost of center-based care for 3- and 4-year-olds. 
This is the age group on which Preschool for All is focused. Full-day 
infant and toddler care is considerably more expensive, as indicated in 
your question, and as recognized in my answer to Representative Tierney 
in which I noted that costs are contingent on the age of the child.

    [Whereupon, at 12:08 p.m., the hearing was adjourned.]

                                  [all]
                                  
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
